<html>
<title> - DEPARTMENT OF ENERGY'S BONNEVILLE POWER ADMINISTRATION: DISCRIMINATING AGAINST VETERANS AND RETALIATING AGAINST WHISTLEBLOWERS</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]



 
DEPARTMENT OF ENERGY'S BONNEVILLE POWER ADMINISTRATION: DISCRIMINATING 
        AGAINST VETERANS AND RETALIATING AGAINST WHISTLEBLOWERS

=======================================================================

                                HEARING

                               before the

                         COMMITTEE ON OVERSIGHT
                         AND GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             AUGUST 1, 2013

                               __________

                           Serial No. 113-75

                               __________

Printed for the use of the Committee on Oversight and Government Reform


         Available via the World Wide Web: http://www.fdsys.gov
                      http://www.house.gov/reform


                  U.S. GOVERNMENT PRINTING OFFICE
86-720                    WASHINGTON : 2014
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="7d1a0d123d1e080e091518110d531e121053">[email&#160;protected]</a>  

              COMMITTEE ON OVERSIGHT AND GOVERNMENT REFORM

                 DARRELL E. ISSA, California, Chairman
JOHN L. MICA, Florida                ELIJAH E. CUMMINGS, Maryland, 
MICHAEL R. TURNER, Ohio                  Ranking Minority Member
JOHN J. DUNCAN, JR., Tennessee       CAROLYN B. MALONEY, New York
PATRICK T. McHENRY, North Carolina   ELEANOR HOLMES NORTON, District of 
JIM JORDAN, Ohio                         Columbia
JASON CHAFFETZ, Utah                 JOHN F. TIERNEY, Massachusetts
TIM WALBERG, Michigan                WM. LACY CLAY, Missouri
JAMES LANKFORD, Oklahoma             STEPHEN F. LYNCH, Massachusetts
JUSTIN AMASH, Michigan               JIM COOPER, Tennessee
PAUL A. GOSAR, Arizona               GERALD E. CONNOLLY, Virginia
PATRICK MEEHAN, Pennsylvania         JACKIE SPEIER, California
SCOTT DesJARLAIS, Tennessee          MATTHEW A. CARTWRIGHT, 
TREY GOWDY, South Carolina               Pennsylvania
BLAKE FARENTHOLD, Texas              TAMMY DUCKWORTH, Illinois
DOC HASTINGS, Washington             ROBIN L. KELLY, Illinois
CYNTHIA M. LUMMIS, Wyoming           DANNY K. DAVIS, Illinois
ROB WOODALL, Georgia                 PETER WELCH, Vermont
THOMAS MASSIE, Kentucky              TONY CARDENAS, California
DOUG COLLINS, Georgia                STEVEN A. HORSFORD, Nevada
MARK MEADOWS, North Carolina         MICHELLE LUJAN GRISHAM, New Mexico
KERRY L. BENTIVOLIO, Michigan        Vacancy
RON DeSANTIS, Florida

                   Lawrence J. Brady, Staff Director
                John D. Cuaderes, Deputy Staff Director
                    Stephen Castor, General Counsel
                       Linda A. Good, Chief Clerk
                 David Rapallo, Minority Staff Director


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on August 1, 2013...................................     1

                               WITNESSES

The Hon. Gregory H. Friedman, Inspector General, U.S. Department 
  of Energy
    Oral Statement...............................................     8
    Written Statement............................................    11
The Hon. Daniel B. Poneman, Deputy Secretary, U.S. Department of 
  Energy
    Oral Statement...............................................    16
    Written Statement............................................    19
Ms. Anita J. Decker, Bonneville Power Administration
    Oral Statement...............................................    23
    Written Statement............................................    25

                                APPENDIX

Letter from Mr. Daniel P. Boneman to Chairman Issa and Rep. 
  Cummings.......................................................    60


DEPARTMENT OF ENERGY'S BONNEVILLE POWER ADMINISTRATION: DISCRIMINATING 
        AGAINST VETERANS AND RETALIATING AGAINST WHISTLEBLOWERS

                              ----------                              


                       Thursday, August 1, 2013,

                  House of Representatives,
      Committee on Oversight and Government Reform,
                                           Washington, D.C.
    The committee met, pursuant to call, at 9:35 a.m., in Room 
2154, Rayburn House Office Building, Hon. Darrell E. Issa 
[chairman of the committee] presiding.
    Present: Representatives Issa, Mica, Jordan, Chaffetz, 
Walberg, Lankford, Gowdy, Hastings, Meadows, Bentivolio, 
Cummings, Maloney, Norton, Tierney, Lynch, Connolly and Pocan.
    Staff Present: Ali Ahmad, Majority Communications Advisor; 
Jen Barblan, Majority Counsel; Molly Boyl, Majority Senior 
Counsel and Parliamentarian; Lawrence J. Brady, Majority Staff 
Director; Caitlin Carroll, Majority Deputy Press Secretary; 
Sharon Casey, Majority Senior Assistant Clerk; Steve Castor, 
Majority General Counsel; John Cuaderes, Majority Deputy Staff 
Director; Carlton Davis, Majority Senior Counsel; Adam P. 
Fromm, Majority Director of Member Services and Committee 
Operations; Linda Good, Majority Chief Clerk; Tyler Grimm, 
Majority Professional Staff Member; Christopher Hixon, Majority 
Deputy Chief Counsel, Oversight; Mark D. Marin, Majority 
Director of Oversight; Tamara Alexander, Minority Counsel; 
Krista Boyd, Minority Deputy Director of Legislation/Counsel; 
Beverly Britton Fraser, Minority Counsel; Jennifer Hoffman, 
Minority Communications Director; Elisa LaNier, Minority 
Director of Operations; Dave Rapallo, Minority Staff Director; 
and Cecelia Thomas, Minority Counsel.
    Chairman Issa. Good morning. The committee will come to 
order.
    We on the Oversight and Government Reform Committee exist 
to secure two fundamental principles: first, Americans have a 
right to know that the money Washington takes from them is well 
spent and, second, Americans deserve an efficient, effective 
Government that works for them. Our duty on the Oversight and 
Government Reform Committee is to protect these rights. Our 
solemn responsibility is to hold Government accountable to 
taxpayers, because taxpayers have a right to know what they get 
from their Government. It is our job to work tirelessly in 
partnership with citizen watchdogs to deliver the facts to the 
American people and bring genuine reform to the Federal 
bureaucracy.
    Today's hearing represents what we would consider the front 
line in the whistleblower protection issue. This committee's 
efforts, both in bipartisan legislation, the first time in more 
than a decade, to pass new whistleblower protection and our 
recognition that we need to hold Government accountable to the 
American people by protecting whistleblowers when they allege 
or uncover wrongdoing. This committee, on a completely 
nonpartisan basis, has always sought to protect whistleblowers. 
Whether they come forward in a Republican administration or 
Democratic administration; whether it points to the Oval Office 
or just to the office next door for some harassment, 
whistleblowers deserve to be heard and protected.
    Two weeks ago, the Department of Energy inspector general 
issued a management alert warning about Bonneville Power. We do 
not seize on every management alert. We consider the seven day 
notification and these kinds of alerts as an opportunity to ask 
should we look into this, can we make a difference, is it 
appropriate for us to act, because what we see could go beyond 
the four corners of the particular agency or because there is 
more beneath the surface. In this case, the most important 
question for us is when Bonneville Power apparently and 
deliberately began disadvantaging veterans and other 
applicants. They did something that goes at the very heart of 
the Federal employment and hiring systems.
    There are more or less one million Americans who put on a 
uniform every year and two million who do not. All of them are 
Federal employees. But a large number have done both. We have 
been well served by men and women who serve our Country at the 
risk of life and limb, and then go on to have short, medium, or 
very long careers of public service in our civilian workforce. 
Certainly, at the Department of Defense, the nexus between what 
they learned on active duty and what they do helping those who 
are still on active duty is critical.
    At the Post Office, the largest single employer of 
veterans, men and women every day trust that their mail will be 
delivered by people whose integrity is shown by their 
willingness to put their life on the life.
    Let me be perfectly clear. The primary concern we have 
today is the apparent retaliation against whistleblowers. It is 
illegal and we won't stand for it. We want to make sure the 
truth gets to the American people. We clearly believe in this 
case there are two issues: protect the whistleblowers and send 
a strong message from this committee that the special and 
earned status of hiring for our veterans is in fact codified in 
law and universally believed by people on this side of the 
dais.
    Consequently, this hearing will be the beginning of what 
will be a dual investigation, one working hand in hand with the 
IG, one in which, as my ranking member and I coined in an 
earlier investigation, we will look over his shoulder.
    However, we reserve the right to go independent if 
necessary. We do so because there are two issues. When it comes 
to investigating, IGs have certain privileges and authorities, 
but not as many as we have here. For that reason, at the 
beginning of this hearing I want to make it clear if the IG 
does not get full cooperation in the investigation, or if for 
any reason someone falls outside the ability for the IG to get 
testimony, we will back that authority up.
    The Department of Energy's recent reversal of the 
retaliation against personnel is a positive step. I don't want 
to let that go unnoticed, but make no mistake: we expect people 
not just to be reinstated, but to be treated in a genuine, 
appropriate way as people who have done the right thing, not 
people who have broken some sort of silence within any agency.
    With that, I thank our panelists and ask the ranking member 
for his opening statement.
    Mr. Cummings. Thank you very much, Mr. Chairman.
    Today we are here discussing a preliminary management alert 
issued by the inspector general of the Department of Energy on 
July 16th related to the Bonneville Power Administration, also 
known as BPA. For those not familiar with BPA, it is a unit of 
the Department of Energy based in Portland, Oregon that is 
self-funded and receives no appropriation. It has approximately 
3,100 employees, with no political appointees, and it supplies 
electricity from hydro and other types of power plants to 
western States, including California, Idaho, Nevada, Oregon, 
Utah, Washington, Wyoming, and parts of Montana.
    The IG's alert covers two major allegations. First, it 
finds that BPA engaged in prohibited personnel practices from 
November 20th, 2010, to June 2012. Specifically, the alert 
states that BPA's actions resulted ``in the inappropriate 
exclusion of veterans and other applicants from consideration 
for selection.'' The second major allegation is that ``BPA 
initiated questionable adverse personnel actions'' against 
employees who raised concerns about hiring problems with the IG 
and others.
    The IG alert says this: While we are not in a position at 
this point to conclude that the actions taken thus far are 
retaliatory in nature, we are deeply concerned.
    I am also very concerned. We are fighting a war that has 
lasted more than a dozen years. American soldiers are arriving 
home every day and they face common worries in my district and 
districts all over the Country. They ask themselves: How will I 
support myself when I take off these fatigues? How will I 
support my family when I hang up the boots?
    For their service and sacrifice, words of thanks from a 
grateful Nation are not nearly enough. We need to continue 
moving service members from our armed forces to our workforces 
as seamlessly as possible.
    In addition, our committee, in particular, takes very 
seriously its role with regard to protecting whistleblowers. I 
do not want to get ahead of the evidence or the IG's 
investigation, and I understand that there have not been any 
findings of retaliation, but we have to treat these allegations 
carefully, responsibly, and thoroughly. If allegations of 
discrimination against veterans or retaliation against 
whistleblowers prove true, those responsible must be held 
accountable for their actions.
    Despite these troubling allegations, I am encouraged with 
the proactive nature of the IG's investigation and the very 
swift response of the Department of Energy. The IG made two 
preliminary recommendations in the alert while they continue 
the investigation. First, they recommended that all ongoing 
disciplinary actions against BPA staff be suspended until the 
IG completes its work and issues its final results. Second, 
they recommended that any employees facing removal or 
suspension be temporarily restored to their positions.
    In response, the Department not only implemented these 
recommendations, but took a number of additional steps to 
aggressively address these issues. The deputy secretary named a 
new acting administrator of BPA, instructed the new 
administrator to immediately direct all employees to fully 
cooperate with the IG, initiated an immediate review of BPA 
management, and suspended all adverse personnel actions pending 
further review.
    Let me read the IG's very positive assessment of the 
Department's actions to date: ``The Department expresses 
concurrence with the facts presented, the conclusion reached, 
and the recommendations provided in its management alert. 
Notably, the Department initiated immediate corrective actions 
which were fully responsive to our findings and 
recommendations.''
    Finally, I understand the limitations of today's hearing. 
The IG's conclusions are preliminary. The IG has made it clear 
that the investigation is ongoing and we will look forward to a 
final report when the investigation concludes. Also, because we 
do not have final conclusions, we understand that today's 
witnesses may not be able to discuss some issues due to the 
Privacy Act and other constraints.
    With that, I thank the witnesses for their participation in 
today's hearing and I look forward to the testimony.
    With that, I yield back.
    Chairman Issa. Thank you.
    All members will have seven days within which to submit 
their opening statements.
    We now welcome our first panel of witnesses.
    The Honorable Daniel Poneman is Deputy Secretary of the 
United States Department of Energy. Welcome.
    The Honorable Gregory Friedman is the Inspector General of 
the United States Department of Energy and the primary reason 
we are here today. Welcome.
    Anita Decker is the Chief Operating Officer for the 
Bonneville Power Administration, or was, and we will discuss 
that further.
    Pursuant to the committee rules, I would ask all three of 
you please rise to take a sworn oath, and raise your right 
hands.
    Do you solemnly swear or affirm the testimony you are about 
to give will be the truth, the whole truth, and nothing but the 
truth?
    [Witnesses respond in the affirmative.]
    Chairman Issa. Thank you. Please be seated.
    Let the record reflect that all witnesses answered in the 
affirmative.
    Pursuant to ensuring that all witnesses are ready and able 
to give testimony, I have just a few questions that are going 
to be required for Anita Decker.
    We have been informed that DOE believes you are appearing 
in your personal capacity. Were you told that?
    Ms. Decker. Yes, I was.
    Chairman Issa. Ms. Decker, you are currently employed by 
the Bonneville Power Administration, is that correct?
    Ms. Decker. Yes, Mr. Chairman.
    Chairman Issa. Ms. Decker, you are currently being paid by 
Bonneville Power Administration, is that correct?
    Ms. Decker. This is correct.
    Chairman Issa. When were you first hired by Bonneville 
Power Administration?
    Ms. Decker. In October of 2007.
    Chairman Issa. Thank you. Have you been an employee of 
Bonneville Power Administration since then continuously?
    Ms. Decker. Mr. Chairman, there was a period of time when I 
was on a detail assignment for the Western Area Power 
Administration, from August of 2012 until April of 2013.
    Chairman Issa. And that falls within what many of us think 
of as Bonneville Power, this group of related organizations, is 
that correct?
    Ms. Decker. The Western Area Power Administration is not.
    Chairman Issa. It is not Bonneville, but it is one of the 
four.
    Ms. Decker. Correct.
    Chairman Issa. Okay. And this was an assignment that 
Department of Energy chose, to have you move from one to the 
other and had to be approved?
    Ms. Decker. That is correct.
    Chairman Issa. Okay. And I will ask this because it is 
required. Bonneville Power is part of the Department of Energy, 
is that correct?
    Ms. Decker. That is correct.
    Chairman Issa. The Western Area Power Administration is 
part of the Department of Energy, is that correct?
    Ms. Decker. That is correct.
    Chairman Issa. And the Department of Energy is part of the 
Executive Branch. I will answer yes for that one.
    Did the Department of Energy pay for your transportation 
here today, as far as you know, either directly or through 
Bonneville Power?
    Ms. Decker. Mr. Chairman, yes.
    Chairman Issa. Are you receiving per diem for your travel 
here today, as far as you know?
    Ms. Decker. Mr. Chairman, yes.
    Chairman Issa. When were you placed on administrative 
leave?
    Ms. Decker. Mr. Chairman, I was placed on administrative 
leave on July 15th, 2013.
    Chairman Issa. And roughly when do you believe you were 
restored from that position?
    Ms. Decker. So, Mr. Chairman, I was restored on Sunday 
afternoon in order to just prepare for testimony and to appear 
today.
    Chairman Issa. Okay. Did you have access to official emails 
in preparation for today's hearing?
    Ms. Decker. Yes, I did.
    Chairman Issa. Were you instructed by the Department of 
Energy that you are here today only in your personal capacity? 
I asked this before.
    Ms. Decker. Mr. Chairman, that is correct.
    Chairman Issa. Who gave you that instruction?
    Ms. Decker. The instruction was provided by one of the 
Department of Energy's general counsel to my counsel.
    Chairman Issa. Okay.
    Deputy Secretary Poneman, were you aware of that 
instruction?
    Mr. Poneman. Mr. Chairman, when I read Ms. Decker's 
testimony last evening was when I saw the comment about the 
personal capacity. That was the first time I had heard about 
that.
    Chairman Issa. So you weren't consulted in this process?
    Mr. Poneman. No. And there is a difference as I asked the 
question, because I hadn't seen it before. As I understood it 
when I asked our own staff, Ms. Decker is speaking in her 
capacity of her personal actions in this matter, but not as an 
individual citizen. In other words, she is restored to her 
Bonneville employee status to precisely cooperate with this 
committee.
    Chairman Issa. And I will shortcut as quick as I can 
through these questions.
    Do you, Secretary Poneman, understand that there would be 
any restrictions on her full ability to answer about what she 
did in her official capacity during her entire tenure with the 
Department of Energy?
    Mr. Poneman. Neither she nor anyone else would have any 
such restriction, sir.
    Chairman Issa. Do you agree that when someone is asked 
questions about what they saw, heard, and observed or did 
during the time in which they were a Federal employee, that is 
not a personal statement but, rather, an answer as to their 
professional activities?
    Mr. Poneman. If the question is about professional 
activities, by definition that is what they are talking about.
    Chairman Issa. Okay. And the reason I have gone through 
this is it the chairman's decision that Ms. Decker, from what I 
can determine, is here as a Federal employee, in no way in a 
personal capacity. To the best of my knowledge, no one on the 
dais has any questions as to your activities outside of your 
official capacity as a Government employee. So although general 
counsel often makes statements, I want to make it clear, and if 
there is any question or dissent, I want to hear it, that, as 
Federal employees, you are here to represent the positions you 
have and the observations you have, and in no way is that 
personal.
    Now, Secretary, you will speak on behalf of the Department 
of Energy from the standpoint of your opening statement and 
cleared activity. Is that your understanding?
    Mr. Poneman. Yes, sir.
    Chairman Issa. Okay.
    So I will recognize the ranking member if he has any 
questions.
    Mr. Cummings. I have a number of questions.
    Chairman Issa. I wanted to make sure this was clear, 
because we often do bring people in personal capacity. 
Whistleblowers, for example, are not here in their personal 
capacity, they are here on behalf of their activities related 
to the official activity. I wanted to make sure there was no 
misunderstanding that Ms. Decker is here as a Federal employee, 
here to discuss her activities as one of the many people we are 
very proud of as Federal employees with a long career, and not 
in some sort of non-Government way. And perhaps lawyer have a 
technical understanding that I don't, but our counsels could 
find no basis for the word personal to be used.
    Understanding, Ms. Decker, you do not speak on behalf of 
the Department of Energy, but you do speak on behalf of an 
organization you ran, and that is in both of your capacities.
    Mr. Friedman, do you have any questions on this line of 
clarification?
    Mr. Friedman. I do not, Mr. Chairman.
    Chairman Issa. Thank you.
    Mr. Cummings.
    Mr. Cummings. Ms. Decker, first of all, thank you for being 
here. I think we can be even clearer, no matter what the terms 
are. You said that you were put on administrative leave, I 
think you said, on July 15th?
    Ms. Decker. That is correct.
    Mr. Cummings. And then you said that you were restored last 
Sunday, is that right?
    Ms. Decker. That is correct.
    Mr. Cummings. About what time was that? Somebody called 
you?
    Ms. Decker. Yes. I want to say that it was about 11:30 or 
so on Sunday morning, Sunday afternoon.
    Mr. Cummings. All right. But then you said that you were 
restored so that you could come back to do this hearing, is 
that right? What did you say?
    Ms. Decker. So, representative, what I understand is I was 
taken off of administrative leave for the sole purpose of 
preparing testimony for this hearing, and that when I returned 
to Portland I will be placed back on administrative leave.
    Mr. Cummings. All right. So now, with regard to your 
testimony, you mentioned in your personal capacity. Did you 
mention that? I think the chairman talked about it, personal 
capacity. Were you told that that is the range of your 
testimony would be, you would be testifying in your personal 
capacity?
    Ms. Decker. Yes, that is correct. What I was told was I 
would be testifying in my personal capacity of my personal 
knowledge and that I would not be speaking on behalf of 
Bonneville, and that DOE would be the spokesperson for 
Bonneville.
    Mr. Cummings. Based upon what you just said, do you feel 
limited in what you can say today? Do you believe that you are 
being limited in what you can say?
    Ms. Decker. I don't believe I am being limited in what I 
can say, but I would reiterate the instructions I have been 
told is that I am not speaking for DOE in regard to Bonneville.
    Mr. Cummings. So going back to what the chairman said, so 
we won't get caught up in legalese, and correct me if I am 
wrong, you feel that you are free today to speak under oath 
about what you have observed, what you have experienced, what 
you have seen in your capacity as an employee of Bonneville? Is 
that a fair statement?
    Ms. Decker. Representative, what I would say is that my 
personal knowledge does include what I have experienced, what I 
have felt, and what I have done while I have been at 
Bonneville, so I would say yes.
    Mr. Cummings. Very well.
    And, Mr. Poneman, you said that you had no knowledge of 
this personal capacity situation? You did not?
    Mr. Poneman. When I saw Ms. Decker's testimony last night, 
that was the first time I either saw or heard the phrase, sir.
    Mr. Cummings. So you just heard what she said, did you not? 
Did you hear what she said?
    Mr. Poneman. Yes, sir.
    Mr. Cummings. And does that sound reasonable?
    Mr. Poneman. To me, sir, it is pretty simple. And without 
getting caught up in the legalese, precisely because our policy 
is, and will always be, any Bonneville or any DOE employee has 
full freedom to cooperate with any proper investigation such as 
this one, it is to that purpose that Ms. Decker was restored. 
She was not restored in the other capacities of chief operating 
officer and so on. So I think the confusion might be the word 
personal refers to her personal knowledge of what happened, 
anything that is of interest to this committee. But in terms of 
the broader operations of Bonneville today over supply, 
Columbia River Treaty, all of that stuff is not within the 
scope of the restored----
    Chairman Issa. The good news is we are not going to ask 
about what the current load is with certain units offline or 
the capacity of transmission lines.
    Mr. Poneman. I know you know about these things, Mr. 
Chairman.
    Chairman Issa. I do serve on the other committee, and some 
day we may----
    Mr. Poneman. I recall. I recall, sir.
    Mr. Cummings. This is my last question. I note that there 
is a management alert and this management alert, on page 5, 
there is an attachment, and I am pointing this to you, Mr. 
Poneman. It says the deputy secretary also directed the 
administrator to immediately convey to all BPA employees that 
they can cooperate freely with the OIG and other investigations 
without fear of retaliation.
    You are familiar with that?
    Mr. Poneman. Yes, sir.
    Mr. Cummings. Is that accurate?
    Mr. Poneman. Yes, sir.
    Mr. Cummings. Very well.
    Chairman Issa. I thank the gentleman.
    We now recognize our first witness, Mr. Friedman.

         STATEMENT OF THE HONORABLE GREGORY H. FRIEDMAN

    Mr. Friedman. Chairman Issa, Ranking Member Cummings, and 
members of the committee, I appreciate the opportunity to 
testify at your request on the Office of Inspector General's 
July 2013 Management Alert concerning alleged whistleblower 
retaliation and prohibited personnel practices at the 
Bonneville Power Administration. Bonneville and its nearly 3100 
Federal employees are responsible for marketing electric power 
to all or parts of seven or eight States in the Pacific 
Northwest.
    My office is currently reviewing allegations that 
Bonneville engaged in inappropriate hiring practices that 
violated the rights of applicants for Federal positions, most 
notably applicants entitled to veterans' preference. During 
this review, we learned that Bonneville employees who had 
raised questions regarding violations of personnel practices 
may have been subjected to retaliation and that several of 
these individuals had already filed retaliation complaints with 
the U.S. Office of Special Counsel.
    As troubling as we found these allegations to be, our 
concern intensified when, in July of this year, Bonneville 
employees indicated that additional retaliatory actions were 
imminent. We deemed the sources of the allegations to be 
credible. Thus, we brought this matter to the attention of the 
Department's senior leaders in the July 16, 2013 Management 
Alert. We used management alerts in time-sensitive situations 
that require immediate management consideration. We concluded 
that expedited action to protect the involved Bonneville 
employees was of paramount importance. The Management Alert 
included recommendations to ensure that all Bonneville 
employees feel that they can report potential wrongdoing in an 
atmosphere free from retaliation.
    Commenting on the Alert, the Department concurred with the 
facts, conclusions, and recommendations, and the Department 
outlined a list of corrective actions that had been taken or 
were to be taken, and informed us that the deputy secretary 
directed the administrator to convey to all Bonneville 
employees that they can cooperate freely with the OIG and other 
investigations without fear of retaliation.
    I would like to address the status of our ongoing work 
regarding the core allegation that Bonneville had engaged in 
inappropriate hiring practices.
    As background, on May 11, 2010, the president issued a 
memorandum requiring the use of category rating for personnel 
recruitment and hiring. One objective was to increase the 
candidate selection pool while still complying with merit 
system principles, including veterans' preference. Thus, as of 
November 1st, 2010, Bonneville was required to use category 
rating to rank candidates for competitive positions. One 
critical component of this process is that the quality category 
definitions, the basis for formulating the best qualified lists 
at Bonneville, must be developed before the vacancy 
announcement goes public and cannot be changed once the vacancy 
is opened. This is to assure fairness, equity, and consistency.
    As noted, it was alleged that Bonneville's practices had 
effectively disadvantaged job applicants, most notably those 
entitled to veterans' preference. We found the Department had 
received the same allegations and initiated a review of 
relevant hiring actions in Bonneville's policies and practices. 
This resulted in the February 2013 memorandum to my office in 
which the Department itself identified prohibited personnel 
practices at Bonneville which it described as systemic.
    We promptly initiated a review to determine the underlying 
causes of these problems. Our preliminary findings validated 
the concern that Bonneville had adjusted quality category 
definitions after vacancy announcements were closed and 
applications were received. These matters have also been the 
subject of internal reviews by Bonneville itself and by the 
U.S. Office of Personnel Management.
    These examinations have been extremely revealing. Our 
summarization of the data developed by Bonneville shows that it 
had engaged in inappropriate personnel practices in 65 percent 
of its competitive recruitments, that is, 95 of 146 cases, 
conducted from November 2010 to June 2012, confirming, in 
essence, the allegation that the best qualified list had been 
modified after applications were received. Clearly, as a 
consequence, veterans and other applicants were inappropriately 
excluded from consideration for job selection.
    As has been noted, our review is still in process and, 
therefore, the statistical analysis that I just gave you may 
change as new information becomes available and as we analyze 
the new information.
    We were told that Bonneville changed its work processes and 
issued new guidance in May 2012 to stop these practices; 
however, most importantly, Bonneville failed to take required 
action to notify the negatively impacted applicants and address 
the impact associated with the prohibited practices. As of June 
2013, Bonneville's hiring authorities have been suspended. 
These actions were taken because both OPM and the Department 
concluded there were major errors in Bonneville's personnel 
files.
    Our emphasis was and remains establishing the cause of the 
improper practices, and I would like to stress again that our 
Management Alert was preliminary. Our work with regard to the 
substances of these allegations is not complete and it 
continues. Additional interviews and document searches are 
underway. We intend to complete the effort as promptly as 
possible.
    Mr. Chairman and members of the committee, this concludes 
my statement. I would be happy to answer any questions that you 
may have.
    [Prepared statement of Mr. Friedman follows:]

    [GRAPHIC] [TIFF OMITTED] T6720.001
    
    [GRAPHIC] [TIFF OMITTED] T6720.002
    
    [GRAPHIC] [TIFF OMITTED] T6720.003
    
    [GRAPHIC] [TIFF OMITTED] T6720.004
    
    [GRAPHIC] [TIFF OMITTED] T6720.005
    
    Chairman Issa. Thank you.
    Secretary Poneman.

          STATEMENT OF THE HONORABLE DANIEL B. PONEMAN

    Mr. Poneman. Thank you, Chairman Issa, Ranking Member 
Cummings, and distinguished members of the committee.
    Before beginning my prepared remarks, I would like to pause 
to acknowledge the untimely passing of Mr. Benjamin Cool, a 
Wilson Construction employee who died earlier this week while 
working at a Bonneville Power substation in Oregon. Our 
thoughts and prayers go out to him and to his family. This 
tragedy starkly reminds us of the dangers, as well as the 
awesome responsibility, for those who work on our electric 
grid. It also reminds us of how important it is to make that 
extra effort to do our job safely and always to look for ways 
to improve our performance, and, indeed, our management 
principles tell us that we must do our work safely and 
continuously improve in our efforts.
    I have been invited here today to discuss the Bonneville 
Power Administration and the allegations of questionable 
personnel practices at BPA. The Department of Energy takes 
these allegations very seriously. We share the committee's deep 
concern regarding the inspector general's preliminary findings. 
We have responded forcefully to those findings and continue to 
provide assistance to aid in the completion of the IG's 
investigation of BPA. We also continue to provide guidance and 
support to BPA management as they carry on the work of BPA in 
all of its dimensions, including human capital management, but 
extending to the full suite of BPA missions and all of their 
diversity.
    In the matter being reviewed by this committee, as the IG 
recognized, the Department initiated immediate corrective 
actions which were fully responsive to its findings and 
recommendations so far. As the IG continues its investigation, 
we look forward to a full accounting of the facts so we can 
carefully consider and implement any actions that may be 
appropriate.
    The history of BPA dates to 1937, when President Franklin 
Roosevelt signed the Bonneville Project Act to deliver the 
massive benefits of Columbia River hydro power, clean, 
inexpensive electricity to citizens of the Pacific Northwest. 
Four years later, BPA hired Woody Guthrie to write 26 songs in 
30 days about the Columbia River hydro system for the princely 
sum of $266.66. This is an organization, in short, Mr. 
Chairman, with a great history and a great tradition, and it 
has played a major role in the development of the Pacific 
Northwest.
    For all its storied past, Bonneville remains vitally 
important today in serving the energy needs of the citizens of 
the Pacific Northwest. Specifically, it markets wholesale 
electric power from 31 Federal hydro power projects in the 
Columbia River basin. While part of DOE, BPA, as Mr. Cummings 
has noted, is self-funding and covers its costs by selling its 
products and services to ratepayers and through borrowing from 
the U.S. Treasury.
    In 2012, DOE received a complaint alleging prohibited 
personnel practices at BPA and provided this information to the 
inspector general. The inspector general informed the 
Department that it had also received a similar complaint. The 
IG subsequently requested that DOE review these matters. DOE 
conducted a review of the hiring cases identified in the 
initial complaint and briefed the IG on the findings. Included 
in the Department's findings was concern that BPA had not 
followed the personnel requirements related to veterans' hiring 
practices.
    Based on these initial findings, DOE took a series of 
actions to address the situation at BPA. First, DOE required 
BPA to submit all cases involving hiring from the general 
public to DOE for review and concurrence before proceeding; 
second, DOE subsequently formally suspended the BPA 
administrator's authority to conduct hires from the general 
public; and, third, based on the preliminary findings from the 
June 2013 audit, DOE formally suspended BPA's authority to 
conduct hiring from within the existing Federal workforce.
    Based on its June 2013 audit, DOE also outlined steps BPA 
needed to take to correct its hiring procedures. DOE continues 
to provide support to BPA to assist Bonneville in taking 
corrective actions as needed and to develop and implement sound 
human resource processes and procedures.
    As the committee is aware, the IG and others have also 
indicated there were allegations of retaliation against BPA 
employees who were cooperating with the IG's investigation. Let 
me be clear. DOE is strongly committed to a workplace where all 
workers are free to speak out, voice concerns, or lodge 
complaints without fear of retaliation. For this reason we were 
seriously concerned when we learned, after the fact, that BPA 
had issued a notification of proposed removal against a 
potential whistleblower. DOE then took swift and decisive 
action.
    First, DOE requested that BPA provide all documentation 
associated with proposed adverse actions; second, DOE 
temporarily suspended BPA's authority to take any adverse 
personnel actions and instructed BPA to provide DOE 
headquarters with all information on any adverse actions in 
process or under consideration; third, as has been noted 
already, I directed the administrator of BPA to take no adverse 
personnel actions against BPA employees, to immediately suspend 
any such actions that had already been taken, and to instruct 
any such employee then on administrative or any other type of 
leave to return to work immediately. I also directed the BPA 
administrator to provide a full, prompt report of any actions 
that conceivably could fall into these categories. Furthermore, 
I directed the administrator to immediately convey to all BPA 
employees that they can cooperate freely with IG and other 
investigations without fear of retaliation. Finally, I sent a 
team to BPA to conduct a management review and named Elliott 
Mainzer as acting administrator of BPA on an interim basis.
    In conclusion, we recognize the committee's interest in 
this matter and share your objective of remedying any 
deficiencies in personnel practices at BPA. We look forward to 
a full accounting of the facts once the IG's investigation is 
complete so that we can evaluate the situation and, as 
necessary, build on the steps already taken to assure that BPA 
staff understand Federal hiring rules and have the capability 
and systems in place to implement them appropriately. BPA 
remains committed to performing its mission and to serving the 
Nation, the region, and its customers while ensuring continuity 
and stability in its operations. The Department will be working 
actively to support Bonneville as it continues to fulfill these 
vital responsibilities and to make progress on critical issues 
facing the organization and the region. We are all grateful for 
the dedicated service of the thousands of BPA employees who 
strive every day to fulfill their mission.
    Mr. Chairman and members of the committee, this completes 
my prepared statement. I would be happy to answer your 
questions at this time.
    [Prepared statement of Mr. Poneman follows:]

    [GRAPHIC] [TIFF OMITTED] T6720.006
    
    [GRAPHIC] [TIFF OMITTED] T6720.007
    
    [GRAPHIC] [TIFF OMITTED] T6720.008
    
    [GRAPHIC] [TIFF OMITTED] T6720.009
    
    Chairman Issa. Thank you.
    Ms. Decker.

                  STATEMENT OF ANITA J. DECKER

    Ms. Decker. Chairman Issa, Member Cummings, and 
distinguished members of the Committee on Oversight and 
Government Reform, I am here as a result of acceptance of the 
chairman's invitation, which I initially declined. Given my 
limited ability to prepare, the lack of final findings or 
resolution on personnel matters at issue and my tenuous 
position of being on administrative leave have given me pause.
    On July 15th, as you have already established, I was placed 
on administrative leave by DOE. The memorandum I received 
recites allegations that BPA engaged in improper hiring 
practices, violations of veterans' preference and merit system 
principles, and allegations of whistleblower reprisal. There 
are no particular allegations against me specifically.
    I have not been allowed to access the BPA buildings, 
documents, personnel, or computer systems up until this Sunday, 
so I have only had limited time to prepare, so I hope you will 
give me a little bit of grace for that.
    I would like to state that I would never knowingly allow 
BPA to implement policies or practices that violate Federal 
veterans' hiring. I am proud of BPA's record of veteran hiring, 
both personally and professionally. My father served in the 
U.S. Navy; my stepbrother retired from active duty as a U.S. 
Marine; my stepsister left the Air Force after 14 years of 
service and then spent 19 years in the U.S. Air Force Reserves, 
including being deployed to Iraq. I have a stepson who served 
in the U.S. Navy who is now working for the Post Office as a 
contractor. So the importance of veterans' preference does not 
escape me; it has personal meaning for me. I have actively 
supported veteran personnel and I was extremely proud for 
Bonneville to be recognized for supporting veterans and for me 
personally to be recognized by Bonneville's veterans.
    The main issue regarding BPA hiring practices had to do 
with BPA's interpretation and implementation in late 2010 of 
the category rating process envisioned in the Improving the 
Federal Recruitment and Hiring Process. BPA's implementation of 
how to apply the category rating was incorrect. That said, the 
issue that was identified by BPA staff, identified by BPA staff 
in May of 2012. At that time, more than a year ago, BPA stopped 
the practice that was in question.
    In July of 2012, I learned that either there had been or 
there was going to be a complaint issued to the IG. I responded 
as described in my written testimony. When I left Bonneville in 
August of 2012 to serve as acting administrator of the Western 
Area Power Administration at the request of DOE, I thought the 
hiring issues would be timely resolved. Most importantly for me 
before I left was the fact that the hiring practice that had 
disadvantaged both veterans and non-veterans had been stopped.
    I returned to Bonneville eight months later, in April of 
2013. Upon return I found that the reconstruction process, the 
required process when a veteran has not been granted the proper 
preference, had not yet been completed. A variety of factors 
combined to delay that resolution, but both BPA and DOE have 
first attempted to ensure that we have all of the issues that 
need to be remediated for before we begin remediation.
    With respect to the allegations of retaliations against 
whistleblowers, I can assure this committee that I take that 
very seriously and I understand the sensitivities associated 
with protecting whistleblowers. While the actions in question 
in the IG Management Alert are in my line of responsibility, I 
am not the decision maker of the proposed actions. While I 
might be aware of some of the actions, my primary interest was 
are those actions following the appropriate personnel actions 
and processes that are designed to protect both the individual 
and the agency and taxpayers, and in this case Bonneville's 
ratepayers.
    I also take performance management very seriously and 
believe the Federal personnel system contains checks and 
balances intended to protect the agency's ability to fairly 
manage performance and protect employees from retaliation. My 
personal belief, my training, my legal advice from BPA counsel 
have made it very clear there is zero tolerance for 
retaliation. It also counsels that making a complaint or other 
protected activity does not insulate an individual from 
performance accountability solely because that person engaged 
in a protected activity such as complaints or cooperating in an 
IG investigation.
    In summary, in regard to retaliation, until the 
investigation, audits, and legal determinations are final, 
jumping to conclusions is inappropriate and may do unintended 
damage to effective and efficient government and to public 
servants.
    In regard to veterans, we made a regrettable mistake. We 
stopped making that mistake over a year ago. I want to be part 
of making this right.
    Mr. Chairman, I am happy to answer any questions.
    [Prepared statement of Ms. Decker follows:]

    [GRAPHIC] [TIFF OMITTED] T6720.010
    
    [GRAPHIC] [TIFF OMITTED] T6720.011
    
    [GRAPHIC] [TIFF OMITTED] T6720.012
    
    Chairman Issa. Thank you.
    I recognize myself.
    Ms. Decker, you are Senior Executive Service.
    Ms. Decker. Correct.
    Chairman Issa. I just want you to be aware that there is a 
bill on the floor today. If that becomes law, it would require, 
before you be terminated, that you be told at the time that you 
would be removed, and with 30 days to remedy it, what you are 
being accused of. Not everyone on the dais is going to vote for 
that, but I will be one who will support that. I am not a fan 
of long administrative leaves and I am completely opposed to 
people being on the payroll, off the job, and neither accused 
nor in a position to even prepare to explain what happened as 
time goes by. I don't think that is good management practice.
    But I want to ask you a specific question, and perhaps, in 
a sense, this will be more of a personal question. Could you 
briefly tell us when you learned that you were being put on 
administrative leave and the events that occurred in those 
first few minutes when that happened?
    Ms. Decker. Mr. Chairman, I had an email that said I needed 
to be available for a phone call at 9:00. A woman from DOE's 
Human Capital Office called me and said that an individual was 
going to bring me an envelope and there would be a knock at my 
door, and there was and I was handed an envelope, and inside 
that envelope was a memo from the woman I was talking to on the 
phone that said, as I said in my oral statement, Bonneville was 
under investigation and she had been delegated the authority to 
put me on administrative leave and, therefore, she was. And the 
letter gave instructions of what I needed to return in terms of 
Government property and that I would need to check in every day 
until further notice. And the gentleman who handed me the 
envelope came and I gave him my Government possessions and he 
walked me out of the building.
    Chairman Issa. Let me paragraph that. They sort of took 
your gun and badge, and walked you out virtually at gunpoint; 
you were not allowed to do anything except walk out of the 
building and it was a fairly public display, wasn't it?
    Ms. Decker. Yes.
    Chairman Issa. Have you seen that done before at 
Bonneville? Is that a standard practice?
    Ms. Decker. I would not call it a standard practice. There 
are times when someone has been notified, like in a proposal, 
or if they are going to be on administrative leave for cause, 
that that is the process that Bonneville follows as well.
    Chairman Issa. But you were not told you were on 
administrative leave for cause.
    Ms. Decker. No.
    Chairman Issa. Okay.
    Secretary, you talked in terms of a fairly aggressive 
action once you became aware of this, but let's go through, 
based on what Ms. Decker said. One, DOE knew about this more 
than a year ago, correct?
    Mr. Poneman. Mr. Chairman, when you say this, what are you 
referring to?
    Chairman Issa. Well, you knew about the wrong use of the 
hiring practices, the discriminatory hiring practices in May of 
last year.
    Mr. Poneman. Mr. Chairman, there was an anonymous complaint 
that was filed in May of last year, that is correct.
    Chairman Issa. Well, Mr. Friedman, maybe I will go through 
it with you quickly. Between May of last year and the time Ms. 
Decker was walked out of the building, was there a time in 
which whatever--and we don't want to get into details of why 
she is on administrative leave, but was there a time that 
people knew that there was a there-there that was well before 
that day? And, more importantly, as I understand it, Ms. Decker 
was gone for eight months. Basically, during the 90 days or 
less in which she returned, was there some action that 
triggered her being placed on administrative leave? And you 
don't have to tell me what it was, but administrative leave and 
the need to remove her from the building in that way.
    Mr. Friedman. Well, let me treat that in two parts, Mr. 
Chairman. First of all, there were a number of people within 
the Department of Energy who were aware of the fact, from June 
2012 to the date that these events took place that you are 
referring to, that there was a problem or there was an alleged 
problem with regard to personnel practices at Bonneville. So to 
set the stage, I think you are right about that.
    With regard to any individual being placed on 
administrative leave, I did not recommend that, I didn't 
suggest it, I wasn't consulted, given a thumbs up or thumbs 
down, so I can't fill in the details as to what transpired and 
the thought process behind that.
    Chairman Issa. Okay, but at this point you have reached a 
conclusion, which was they certainly broke the rules when it 
came to hiring and it worked to the detriment of veterans.
    Mr. Friedman. I reached the conclusion, the Department's 
Human Capital Office reached the conclusion, and the Office of 
Personnel Management have reached that conclusion.
    Chairman Issa. Okay. Two more quick questions. One, we have 
the name of five, but there are, if I understand, at least six 
people who qualify, in your opinion, as whistleblowers in this 
case who went to the Office of Special Counsel, etcetera.
    Mr. Friedman. Yes, that is roughly correct.
    Chairman Issa. Okay. If the number is not right, in another 
setting, we would appreciate it. We would also appreciate the 
names.
    Mr. Poneman, I am going to be very brief. One, you 
mentioned privacy in your opening statement. You do understand 
that we are not covered by privacy laws. Congress specifically 
exempted itself from that, so we are entitled to things which 
would otherwise not be available under the Privacy Act.
    Mr. Poneman. Mr. Chairman, I am referring to restrictions I 
am told I am subject to under the Privacy Act, sir.
    Chairman Issa. Okay. Because we have a number of things we 
want to make you aware of. First of all, we have sent you two 
letters; one received no response whatsoever, and that was July 
16th, and the second one we are not happy with the response and 
we will talk to you offline. Before I yield to the ranking 
member, the point that I want to make is this: we expect if 
something cannot be said in an opening hearing, if it is 
sensitive, prior to that hearing we get a full and complete 
either in camera or otherwise arranged review. We are not as 
well prepared as we would like to be today particularly because 
immediately after the notification we sent a letter and got no 
response, and the letter was addressed to you.
    Mr. Poneman. Congressman, we always seek to being 
cooperative with this committee. It was my understanding that 
the letter that had been sent was responsive to both of your 
incomings, which came in the space of a couple of days.
    Chairman Issa. Well, Mr. Secretary, just so you know, and I 
am going to yield to the ranking member, you didn't even call 
us and, no, there was no written response. So you represent the 
Administration. Understand this is an Administration who has 
systematically not responded. So we have known each other a 
long time, but you get a little tarred and feathered if you act 
like many other Administration officials and we get that kind 
of non-response. This is not something, as I told you when we 
talked privately, this is something where we think it is fairly 
local, fairly contained, but it really encompasses an important 
message, both on whistleblowers and veterans, that I think the 
committee wants to make sure that we shed light on and spread 
the word throughout the Administration. So I am not going to 
belabor this. I expect that we get full cooperation. You and I 
have a past where I think we have great respect for being able 
to work these things out.
    Mr. Cummings.
    Mr. Cummings. Speaking of what the chairman left off, I 
have a letter here dated July 24th, 2013 that I received a copy 
of that was addressed to the chairman from Eric Fygi?
    Mr. Poneman. Fygi, sir.
    Mr. Cummings. Were you aware of this letter?
    Mr. Poneman. Yes, sir.
    Mr. Cummings. It seems to be not your response, but he 
refers to the letter of July 16th and July 17th in this letter. 
Were you aware of this?
    Mr. Poneman. Yes, sir.
    Mr. Cummings. But you did not personally provide a response 
to the chairman, is that right?
    Mr. Poneman. It is my understanding that this letter, I 
think, is fairly standard procedure, was the response from the 
Department on my behalf, and I am here today, sir, as I always 
do appear because we do completely accept the oversight 
authorities that you all have and we are committed to being 
cooperative.
    Mr. Cummings. Mr. Friedman, let me ask you this. In 
response to one of the chairman's questions just a moment ago, 
you said that you had nothing to do, you rendered no opinion 
with regard to Ms. Decker being placed on administrative leave. 
Is that what you said?
    Mr. Friedman. Yes. I think, in fairness, Mr. Cummings, that 
I was told a day or two in advance that that was the plan, but 
it was not my recommendation.
    Mr. Cummings. Is this something you would opine on? I mean, 
is that something that you would normally provide an opinion 
on? I am just curious.
    Mr. Friedman. Under these circumstances, probably not.
    Mr. Cummings. I see. You sounded as if you were 
disappointed that you didn't have something to say about that 
and I just wanted to clear it up.
    Mr. Friedman. I appreciate the question. The answer is I 
conveyed a disappointment, that was not accurate.
    Mr. Cummings. All right. Mr. Friedman, your Management 
Alert says this, ``Bonneville engaged in prohibited personnel 
practices in 65 percent of its competitive recruitments 
conducted from November 20th to June 2012. I have to tell you, 
as I listen to all of this, having been, in my early practice, 
in the late 1970s, to be in civil rights practice and to have 
seen so many people discriminated against, I take this whole 
episode very seriously because I know the damage that it does. 
As far as I am concerned, it is criminal when people deprive 
people of their rightful opportunities. But can you explain to 
me, very briefly, how veterans applying for these positions 
were disadvantaged by these actions?
    Mr. Friedman. Yes. It is nuanced and subtle, but let me try 
to make it as simple as I possibly can. Under the system that 
was in place after the president's memorandum, and was in place 
in Bonneville in November of 2010, essentially a best qualified 
list was derived and a formula was created to set the 
parameters for the best qualified list. Veterans, by 
definition, if they met the best qualified list, went to the 
top; they had to be selected. They could have rejected the job 
offer, but they had to be selected. What Bonneville did is they 
adjusted the criteria after the fact. So instead of a rating of 
90 to 100 falls in the best category list, it was modified from 
up to 95 being the lower threshold and, in effect, everyone who 
scored from 90 to 95 or 94, depending upon how the threshold 
was changed, was essentially excluded from consideration, and 
vets were in that. Vets and non-vets, people who were entitled 
to veterans' preference and those that were not were 
essentially excluded from further consideration as a result of 
changing the bottom cut line.
    Mr. Cummings. You said vets and non-vets. So how did we get 
zeroed in on vets? In other words, if there are other people, 
women, African-Americans? I am just trying to figure out why we 
zeroed in on vets. And don't get me wrong. I think it is very 
important that we address vets, but I am trying to figure out. 
Take me there. Help me with that.
    Mr. Friedman. I understand your point, Mr. Cummings, I 
believe. First of all, the allegations that we received 
specifically indicated that vets had been disadvantaged. But 
you are absolutely correct, there was a population that was 
disadvantaged that included, most likely, and we don't know 
specifically because the reconstruction that has been talked 
about has not taken place, but it no doubt included women, 
minorities, a broad cross-section of applicants.
    Mr. Cummings. This is an ongoing investigation, is it not?
    Mr. Friedman. Yes. Can I qualify?
    Mr. Cummings. Sure.
    Mr. Friedman. It is not, at this point, an investigation. 
Important distinction. It is an inspection and it is an 
allegation-based inspection.
    Mr. Cummings. Would you supply us with the information as 
to the other folks that may have been discriminated against 
here, that may have fallen in that category?
    Mr. Friedman. The answer is I can't do it immediately.
    Mr. Cummings. I know that.
    Mr. Friedman. No, at some point the Department is going to 
have to go, either internally or using consultants, on a case-
by-case basis and reconstruct each one of those vacancy 
announcements to provide the information that you are looking 
for, Mr. Cummings.
    Mr. Cummings. How many veterans are we talking about here?
    Mr. Friedman. If I knew the answer to that question, I 
could answer your earlier question. We don't know. But in the 
20 cases that the Department looked at, there were 35 vets that 
were disadvantaged, in just 20 cases.
    Mr. Cummings. At this point, do you know why employees were 
doing this? Were they intentionally trying to exclude veterans 
or were they just trying to reduce the number of total 
applicants they had to consider? You have heard Ms. Decker's 
testimony that there may have been some confusion with regard 
to how to do this scoring.
    Mr. Friedman. Well, let me try to break it down.
    Mr. Cummings. Break it down.
    Mr. Friedman. First of all, Bonneville personnel indicated 
that there was confusion in terms of the policy and the 
procedure. I have no basis for disputing that except that, Mr. 
Cummings, a fair person who would read the direction in the 
policy, it was crystal clear. So I don't suggest that these 
people were misleading us or lying to us; I would suggest that 
the credibility in terms of that line of thinking was really in 
doubt.
    Secondly, I am sorry, could you go back to the first part 
of your question?
    Mr. Cummings. Do you know----
    Mr. Friedman. The Bonneville personnel involved indicated 
that the reason they did it, and you hit upon it in your 
question, was that they were trying to reduce the size of the 
pool that was going to the selecting official, to make it 
manageable.
    Mr. Cummings. Finally, Ms. Decker, as the chief operating 
officer of BPA, let me give you an opportunity to respond to 
the IG's finding. Do you agree with the IG that BPA engaged in 
prohibited personnel practices during this time frame to the 
detriment of veterans? And my last question is what is your 
sense of why this happened? Was it intentional? Was it poor 
training?
    Mr. Decker. Representative, the bottom line is I agree with 
the IG's findings. We did apply and implement the category 
rating incorrectly. I think there is not a dispute with 
Bonneville. Mr. Friedman stated that OPM found that, that DOE 
found that, that the IG found that. Bonneville also found that 
and is why we stopped the practice. We found that we had 
implemented it incorrectly. I do not believe that it was 
intentional, because the rationale, if you consider that we 
moved the line, which that is what the intentional act, of 
moving the line. We intentionally did move the line. Why we did 
it was because we were misinformed or didn't understand how to 
apply it correctly. But when we moved the line, that line 
didn't then exclude all veterans, but it excluded that pocket 
of veterans. So say it was from 90 to 100 percent and we moved 
the line to 95. Anyone that was in that 90 to 94 percent 
suddenly got excluded. But anyone that was above the 95 percent 
line, which did include veterans, in fact still, was referred 
to the hiring manager. I believe it was not an intentional act.
    Mr. Cummings. Do you think it was poor training?
    Ms. Decker. I do believe that it was poor training. As I 
understand it, folks had some training. I think the training 
was deficient. And I think that the retraining that is going on 
now will rectify that. But we did implement a faulty 
implementation. That is not in dispute.
    Mr. Cummings. Thank you, Mr. Chairman.
    Chairman Issa. Thank you. I just want to have Mr. Friedman 
follow up on the effect. And I will run you through real quick 
numbers and you tell me if this is correct. You have 50 slots 
to be hired. You have 50 people in the top 5 percent and you 
have 100 people in the top 10 percent. By going to a 10 percent 
mark to a 5 percent mark, let's assume for a moment that there 
are 25 veterans in the top 5 and 25 veterans in the second 5. 
If you take 10 percent, 50 veterans get 50 slots. If you take 5 
percent, 25 veterans get the slots and 25 non-veterans get it. 
Is that roughly the arithmetic, the way it works, because 
veterans flow to the top? The smaller the group, the more 
chance you have of essentially, with a given amount of slots, 
running out of veterans and taking other people. Is that what 
you found in your inquiry?
    Mr. Friedman. Mr. Chairman, I am not sure I completely 
follow your numbers, but, in principle, you have it right. But 
just let me clarify one thing. It is not going to the top, it 
is more severe than that; it is they must be offered a 
position. So they get a primacy that is extremely----
    Chairman Issa. Right. And I said to the top in the sense 
that if there is only 50 slots and there are 60 veterans, only 
50 get offered. So it is very much like the gentleman said, and 
I think it is a good point, it is like civil rights 
discrimination. If you create an environment in which you 
exclude a group of people, for whatever characteristic, that 
would get something, they don't get it, and that is effectively 
what you found in your investigation. So misunderstanding 5 to 
10, somebody probably understood the effect of how many of this 
particular group that uniquely would be offered a position if 
they were on that list, you knew you were excluding them by 
definition, because you knew the size of the hiring, so you 
knew the size that were not going to be included. And I think 
Ms. Decker said it, it wasn't always the same, it was 94 or 95 
percent. Is that correct?
    Mr. Friedman. Well, I agree with you, Mr. Chairman, but I 
would like to draw a distinction between recognizing that 
people who are entitled to veterans' preference were, by 
definition, now below the line, therefore would not be 
considered in contrast to saying that it was done intentionally 
to disadvantage the vets. I am not there yet.
    Chairman Issa. Okay. Well, we look forward to that 
continued process.
    I am going to go out of order to recognize the chairman of 
the full Resource Committee because he also has a hearing. Mr. 
Hastings.
    Mr. Hastings. Thank you, Mr. Chairman, for your 
accommodations and to allow me to come in here after my 
colleagues. I have been chairing a hearing on the transparency 
and the scientific integrity of the Endangered Species Act, not 
an insignificant issue.
    The subject of this hearing is of considerable interest to 
me for multiple reasons, both as a member of this committee 
with oversight responsibilities and also chairman of the 
Natural Resources Committee, which has jurisdiction over the 
Bonneville Power Administration and other power marketing 
authorities. That is why that interest is there.
    It is also of interest to me because of the importance of 
upholding promises made to our Nation's veterans and policies 
governing their hiring by Federal agencies.
    Lastly is a parochial interest to me, because the district 
that I was elected to represent, BPA is a very important part 
of that because it provides the wholesale power, the 
transmission to the greater northwest. And I might add, Mr. 
Chairman, that agency is fully founded by ratepayers.
    As a result, the Northwest Congressional Delegation has 
long worked in a bipartisan way on overseeing BPA. So when it 
comes to these allegations, there clearly is bipartisan support 
in seeking the truth and ensuring that the appropriate 
responses to make certain BPA is operating properly so it can 
move forward in the future.
    There should be no doubt on the part of any person or 
agency that the Congress takes fair treatments of its veterans 
very seriously. Allegations of improper actions must be 
properly and carefully investigated. So I encourage the Office 
of Inspector General to be both thorough and timely in 
completing its reports. The full facts obviously need to be 
known.
    This is important. The full facts, which we do not have 
here today, are needed to be able to fairly and accurately 
assess the actions of BPA and DOE to determine how to move 
forward on this point. And let it be clear, the actions of DOE 
officials are certainly under scrutiny, at least from my 
perspective as the chairman of the Natural Resources Committee.
    Before these allegations ever came to light, there have 
been serious bipartisan questions about this Administration's 
intentions as it relates to power marketing authorities, or 
PMAs. For months, dating back to last year, I have sought 
documents and information from DOE concerning what is commonly 
known as the Chew memo, a directive from then Secretary Chew to 
the PMAs that threatened to arbitrarily increase electricity 
rates of 40 million Americans in order to pursue questionable 
energy dictates. To be very blunt, Mr. Chairman, DOE has not 
been transparent in that regard. In fact, for months DOE has 
been uncooperative in this regard. DOE owes the Committee on 
Natural Resources the request that they had for documents 
surrounding this.
    BPA and PMAs have an established mission under the law. 
This is important. And this mission should not be subject to 
political interference to pursue particular policy penchants of 
any presidential administration, whether that administration is 
Republican or Democrat. Oversight of both of these matters will 
continue from the perspective of the Natural Resources 
Committee and I certainly intend to fully participate in any 
future actions by this committee.
    Once again, Mr. Chairman, thank you very much for your 
courtesy in allowing me to come here after leaving my hearing.
    Chairman Issa. Would the gentleman yield briefly?
    Mr. Hastings. I would be happy to yield.
    Chairman Issa. Thank you.
    Secretary Poneman, I want to run very, very quick 
questions, because the short response we received from Eric 
Fygi, we had asked a question about potential for retaliation 
and directives, and we got an answer saying that you didn't 
order or tell people not to respond. But I want to go through 
something quickly. Did you give a directive, verbal or 
otherwise, to anybody at Bonneville Power not to discuss the 
situation with anybody outside the BPA? In other words, did you 
have a conversation with somebody who then could have acted on 
your statements?
    Mr. Poneman. I certainly have frequently, Mr. Chairman, 
said we are one organization and we need to coordinate our 
communications when we are dealing with the outside world, yes.
    Chairman Issa. Okay, so somebody could have taken your 
statement that we have to coordinate to mean that somehow 
people should only answer questions coordinated or talk to 
Congress on a coordinated basis.
    Mr. Poneman. I have no idea what they read into my 
statements, but, as I said, Mr. Chairman, it is our policy that 
we speak with one voice and we always seek to coordinate our 
messaging to the public, to the Congress, to the press, and so 
forth.
    Chairman Issa. Well, Mr. Secretary, it concerns me that you 
say that. You don't have to coordinate the truth; you don't 
have to prepare to tell the truth. The fact is that we expect 
people to be told something closer to your original opening 
statement, which is that you are free to talk to congress; it 
is not only your right, but it is your responsibility, and that 
although notification may in some cases, if we classify 
notification, may be appropriate, that coordinating is a term 
or code, in my opinion, for come to us, let us tell you what to 
say, let's talk about what you would say. That kind of coaching 
is outside what we would consider to be a free exchange that 
encourages people to tell us, right or wrong, what they think 
happened.
    Mr. Poneman. Let me be very, very clear about this, Mr. 
Chairman, because I think this is a very important question 
that you raise. It is absolutely fundamental, as a matter of 
fairness, as a matter of everything that we stand in our 
management principles and everything else, that any individual, 
be they a Federal employee or a contract employee, must be free 
at any and all times to cooperate fully, to step forward, to 
express any concerns, tutored or untutored, whatever is on 
their mind, they have to be free to step forward and say 
exactly what they think to anyone. I have been very clear about 
that consistently.
    That is a very different thing than assuring that one's 
policy responses in a very complex organization, with a lot of 
different issues, river treaties, rate cases, and so forth, it 
is confusing and inaccurate if we then convey 115,000 views out 
of 115,000 people.
    Chairman Issa. I am going to Mr. Lynch, but we have been 
told by staff at Bonneville Power they are under the impression 
they are not to speak to anyone outside of Bonneville Power 
Administration or DOE about this situation. That is their 
impression when they have said I can't speak to you because 
that is my understanding. And, of course, that thwarts our 
investigation, which isn't that much of an investigation in the 
sense that we are very, very much just trying to look over the 
shoulder of the IG, get comfortable so that we can make an 
assessment on a Government-wide basis. So we have been a little 
surprised that they have the impression that you say you are 
not trying to give them.
    Mr. Poneman. I am surprised too, Mr. Chairman, because 
everything I have said verbally and everything I have put out 
in emails and so forth has said everybody is free to step 
forward without fear of reprisal or retaliation. I have been 
absolutely consistent in that.
    Chairman Issa. Or coordination, hopefully, in the future.
    Mr. Cummings. Mr. Chairman, unanimous consent to have one 
minute just to clear this up.
    Chairman Issa. The gentleman is recognized for one minute.
    Mr. Cummings. Thank you very much.
    I want you to listen to what I am saying very carefully, 
because I don't want misimpressions. But I also want to know 
your answer. You haven't done anything to stop anybody from 
telling the truth, have you?
    Mr. Poneman. Absolutely not, sir.
    Mr. Cummings. I want to make sure that is clear because we 
want the truth, as I have said many times, the truth, the whole 
truth, and nothing but the truth. So I just want to make that 
clear.
    Chairman Issa. Thank you.
    Mr. Lynch.
    Mr. Lynch. Thank you, Mr. Chairman.
    I want to thank the witnesses for coming before the 
committee to help us with this. I am the former chairman, now 
the ranking member of the Subcommittee on the Federal 
Workforce, so I am a big champion of veterans' preference. 
Matter of fact, the distinguished veterans of the United States 
Armed Forces have enjoyed veterans' preference for hiring in 
Federal positions since the Civil War, the American Civil War, 
and well deserved, I think. The longstanding Federal policy of 
veterans' preference in hiring was borne out of our collective 
recognition of the immeasurable sacrifices that our brave sons 
and daughters in uniform have made on behalf of this grateful 
Nation. The veterans' preference has been codified in law, 
including the landmark Veterans' Preference Act of 1944 and the 
Veterans Employment Opportunity Act of 1998, and other Federal 
statutes. So it is a matter of law. It is not a suggestion; it 
is a priority that we have recognized and it needs to be 
followed. These veterans have earned this.
    And it is important to remember that for this workforce 
that we are considering of veterans, the Gulf War veterans, 
Iraq veterans, Afghanistan war veterans, this is a volunteer 
force and many, many, many of them have served multiple tours 
of duty where they have not only put their civilian careers on 
hold, but also their personal lives on hold so that they can 
serve this Country. So these laws for veterans' preference also 
reflect our national commitment to ensuring that our men and 
women in uniform are not penalized because they have served 
multiple tours in Iraq and Afghanistan and in the Gulf. So with 
that interruption in their civilian careers, if they don't get 
veterans' preference, they are penalized. So this is an 
affirmative step that we are taking to make sure that they are 
not penalized for their duty to this Country.
    Now, I am greatly concerned by the inspector general's 
preliminary findings set forth in the July 16th Management 
Alert, and I am going to quote from them. He says BPA engaged 
in hiring practices that ``effectively disadvantaged veterans 
and other applicants and were inconsistent with the concerted 
efforts by the Federal Government to ensure that veterans 
receive appropriate preferential treatment in the hiring 
process.''
    Ms. Decker, I appreciate you haven't had much time to 
prepare, but I have to ask you, in the report, the Alert says 
``We have received a number of complaints from the ACM staff 
members alleging that they were disciplined because they had 
communicated hiring problems to Bonneville management, to the 
Office of the Inspector General, and/or to Human Capital 
officials.'' You are aware of these allegations, correct?
    Ms. Decker. I am, representative.
    Mr. Lynch. Okay. Let's talk a minute about these 
disciplinary actions, which trouble me greatly. Ms. Decker, in 
your testimony you stated that while these actions are in my 
line of responsibility, I am not the decision-maker on the 
proposed actions. That is your statement. Ms. Decker, which 
management officials at BPA were the decision-makers who 
proposed and implemented these adverse personnel actions?
    Ms. Decker. Thank you, representative. So just maybe talk a 
little bit about structure for a second.
    Mr. Lynch. No, no, no, no, no, no, no, no, no. No, no, we 
are not going to talk about structure and things like that. I 
want the names of the people. If you are saying it was in your 
line of responsibility.
    Ms. Decker. Yes.
    Mr. Lynch. And you didn't make it, and other people did, 
and you do go on to say, about the process that was used, who 
are the individuals that we should be talking to that made 
these decisions not to hire veterans, or to limit the number of 
veterans that we are hiring?
    Ms. Decker. So, Mr. Representative, our human resources 
director, in conjunction with the human resources manager for 
staffing actually made--let me back up because I am under oath. 
The decision on how the practice was implemented, I can't speak 
to who specifically determined this was the interpretation 
Bonneville would take. What I can tell you----
    Mr. Lynch. Wait a minute. Wait a minute. In your testimony 
here that you gave to the committee, you say it was made with 
the consultation of a number of individuals. You said they were 
qualified; they made the decision right down the line. You are 
not going to tell me names?
    Ms. Decker. Mr. Representative, what I said was that this 
was in my line of authority. I was not the decision-maker. You 
are asking two different questions. One is who was making 
decisions on the performance management versus who was making 
decisions on the policy. So I am not sure which answer----
    Mr. Lynch. Well, give me them both. Give me one, then the 
next.
    Ms. Decker. Okay. The decision on the policy of the 
implementation of the category rating would have been made by 
the manager in the staffing.
    Mr. Lynch. Who is that?
    Ms. Decker. At the time--you know, I would have to go back 
and see who the manager was.
    Mr. Lynch. Wait a minute, wait a minute, wait a minute. You 
forget?
    Ms. Decker. I am not sure who the manager was of the 
staffing----
    Mr. Lynch. Okay, let's go to the next group, the other 
group that decided policy. Do you remember those names? You are 
under oath, now.
    Ms. Decker. Yes, decided--but what I am not sure of is in 
terms of the policy----
    Mr. Lynch. You have to be kidding.
    Ms. Decker.--it may have been Susan----
    Mr. Lynch. You have to be kidding.
    Ms. Decker. I will give you names. It may have been Susan 
Burns. At the time I believe she was the manager of the 
policy----
    Mr. Lynch. Is that B-Y-R-N-S or----
    Ms. Decker. B-U-R-N-S.
    Mr. Lynch. All right, who else?
    Chairman Issa. Briefly answer. The gentleman's time has 
expired. And I do think that, secretary, that you and the IG 
probably could answer this for the record very accurately.
    Mr. Lynch. We are on the record.
    Chairman Issa. No, I meant with qualified instructions 
within the line. I am happy to have her, to the best of her 
knowledge, answer your questions, but I ran an organization 
that was only a few hundred people, and not being sure which 
person--and I built the company.
    Mr. Lynch. Sir, with all due respect.
    Chairman Issa. The gentlelady may answer.
    Mr. Lynch. With all due respect, though, we spent 20 
minutes up here on a dance of what was personal and what was 
not personal. Now we are getting down to the brass tacks of who 
actually did this and we want to defer the question?
    Chairman Issa. No, I am not deferring. Mr. Lynch, your time 
has expired. What I said was the lady----
    Mr. Lynch. Well, I am chatting with you.
    Chairman Issa. I know. The gentlelady may answer to the 
best of her knowledge or conjecture that it is one of a couple 
of people, but she is under oath. She does not have the 
documentation in front of her.
    Mr. Lynch. She has her memory, though. That is all I am 
asking her.
    Chairman Issa. And that is all we have said. But she has 
said she is not sure on a couple of cases.
    So, Ms. Decker, you may answer those questions to the best 
of your knowledge today, and the committee will ask the 
secretary and the IG to provide such documentation so that we 
may verify the accuracy.
    Mr. Lynch. Okay, so can we have your answer to the 
question?
    Ms. Decker. I will answer the question. So I have--I will 
answer the question. I have 2700 people that report to me. 
Knowing specifically which manager, four levels down, that made 
a decision on implementing a policy, I am not as clear about 
who that specific person was, although I believe the name I 
gave you is accurate.
    In regard to the performance management, the performance 
management decisions were made by first-line supervisors, not 
all the same supervisor, and someone who was an employee 
relations specialist, who is trained to work through 
performance management issues with their manager and different 
representatives of Bonneville legal counsel. They are each 
handled individually given the circumstances of the 
performance.
    Mr. Lynch. So they all, on their own, decided to go with 
this 95 percent level?
    Ms. Decker. No, excuse me, representative. I was referring 
to the individuals that have come under scrutiny or performance 
scrutiny are not necessarily all in the staffing organization.
    Chairman Issa. Thank you. The gentleman's time has expired.
    We now go to the gentleman from Utah, Mr. Chaffetz.
    Mr. Chaffetz. Thank you, and thank you all for being here.
    Mr. Friedman, when did you first learn about the problems 
that we are talking about today?
    Mr. Friedman. The first allegations were received in June 
and August of 2012.
    Mr. Chaffetz. And are you aware of any BPA whistleblowers 
who contacted your office who now face adverse personnel 
actions?
    Mr. Friedman. The answer to that is yes. Well, face or 
faced. There have been intervening actions that have taken 
place.
    Mr. Chaffetz. Well, explain what has happened to these 
people.
    Mr. Friedman. Well, in one case a person was escorted off 
the property and placed on suspension in anticipation of being 
relieved of his or her responsibilities.
    Mr. Chaffetz. And you believe the reason for that was 
because they had contacted your office?
    Mr. Friedman. I am relying upon what they told us. They 
felt they were being retaliated against for raising this issue 
either to our office or to Bonneville's management itself.
    Mr. Chaffetz. Was there more than one person that went 
through this?
    Mr. Friedman. Variations on the theme, yes.
    Mr. Chaffetz. How many are we talking about?
    Mr. Friedman. Well, as the chairman alluded to, it is at 
least five or six, and we have received additional allegations 
since our report was issued and we are sorting through those 
right now.
    Mr. Chaffetz. What effect has this had on your 
investigation?
    Mr. Friedman. Well, it has a chilling effect on--we don't 
know. We can't gage that. But, obviously, people who are 
concerned about their jobs may--that is the whole point of 
protecting these people--they may feel that if they are going 
to be retaliated against for coming forward, that they will be 
reluctant to do so. So it is an unknown. I can't prove the 
unknown.
    Mr. Chaffetz. But there is obviously a current, and that is 
one of the concerns, is there starts to be a current here that 
is a very either direct or indirect.
    Mr. Poneman's comments are baffling to me, quite frankly, 
sir. On the one hand you talk about the great openness and 
transparency, the great ability for anybody to come forward. At 
the same time you have people who say, well, we were told not 
to, we were going to coordinate. In fact, in this letter of 
July 24th of 2013, deputy general counsel wrote to Chairman 
Issa: ``Rather, Bonneville was informed that this is a very 
serious matter and that any external questions were to be 
coordinated with the appropriate headquarters office,'' as if 
the United States Congress was an external organization.
    Mr. Friedman, doesn't that strike you as a contradiction? 
Doesn't that strike you that if you are going to coordinate, 
isn't that sort of code for you better not say anything unless 
headquarters approves it?
    Mr. Friedman. You are asking me for an interpretation, 
Congressman Chaffetz, and I could interpret it one of two ways. 
I could interpret it either way, frankly. One is that it is a 
code, but I prefer the more benign interpretation, which is 
that in an organization you do coordinate things; that is the 
way things get done, things are accomplished.
    Mr. Chaffetz. But that is contradictory to the idea that if 
management, if Washington, D.C. is going to take the point on 
answering these questions, you better let them answer these 
questions, rather than you as an individual feeling free to 
express your personal point of view and your personal 
experience. Is that a leap too far in your mind?
    Mr. Friedman. No, I don't think that is a leap too far, no.
    Mr. Chaffetz. These allegations----
    Mr. Poneman. May I comment on that?
    Mr. Chaffetz. Not yet. Not yet.
    Allegations of retaliation, again, any sense of how far and 
wide this might be?
    Mr. Friedman. Well, as I indicated earlier, I think we have 
five or six cases that are ripe or getting ripe, but we have 
had other allegations since the issuance of our report and we 
don't know where those stand at this point.
    Mr. Chaffetz. Mr. Poneman, we had a very senior official 
there say that you did give a verbal order to acting BPA 
Administrator Elliott Mainzer that nobody at BPA was allowed to 
talk to anybody about the situation. Do you take issue with 
that?
    Mr. Poneman. I have no idea what others have said. I can 
tell you what I said. And I have talked to Mr. Mainzer and I 
have been clear beyond peradventure that anybody may step 
forward. I said this to him verbally; he repeated it in an 
email to the staff. I don't think there is any ambiguity 
whatsoever.
    Mr. Chaffetz. I beg to differ.
    Mr. Chairman, I think as we talk to these whistleblowers, 
and God bless them for stepping forward and offering a 
perspective, it needs to be in context and with an objectivity.
    I appreciate, Mr. Friedman, for your diving into this issue 
and we look forward to your continued experience in sorting 
this out.
    Yield back.
    Chairman Issa. I thank the gentleman.
    We now go to the gentleman who represents a great many 
Federal workers, Mr. Connolly of Virginia.
    Mr. Connolly. Thank you, Mr. Chairman.
    And welcome to the panel.
    Mr. Friedman, I am puzzled by what my colleague, Mr. 
Chaffetz just said. I have worked in the private sector and I 
have worked in the public sector. I headed up a very large 
government locally here. It would be unthinkable in either of 
those enterprises that people could just Lone Ranger responses 
to the Hill. Whether it was written inquiries or whether it was 
a request to testify, you absolutely had to notify your 
supervisor and you absolutely had to coordinate it; otherwise, 
there is chaos. In the private sector company I am talking 
about, we had 46,000 employees, and in the public sector 
company I am talking about we had 36,000 employees, including 
school employees. One can go wrong with allowing everybody to 
do whatever they wanted whenever there was an inquiry here on 
the Hill.
    That is a recipe for chaos, is it not, Mr. Friedman, as a 
management principle?
    Mr. Friedman. I certainly see that possibility.
    Mr. Connolly. Thank you. So the idea that somebody might 
coordinate in no way, shape, or form, on its face, suggests 
anything other than that very word, coordination. That is a 
fair interpretation too, right, Mr. Friedman?
    Mr. Friedman. I think it is a fair interpretation.
    Mr. Connolly. So the idea that putting a sinister 
interpretation on that word is certainly one interpretation, 
and Mr. Chaffetz would have us believe apparently that is the 
only interpretation. But I beg to differ, as somebody who has 
managed large enterprises and been involved in the management 
of large enterprises, both in the public and private sector, 
dealing with this very subject. Frankly, given what could go 
wrong with Federal employees coming before this committee, 
especially, I would think lack of coordination would actually 
be a reckless management act.
    Mr. Chaffetz. Would the gentleman yield?
    Mr. Connolly. No, I will not.
    Mr. Deputy Secretary Poneman, it seems, based on what we 
are looking at, that the Department reacted very aggressively 
to these allegations and took some strong message, so I was 
surprised to learn that Chairman Issa publicly accused you of 
muzzling employees and obstructing the committee's 
investigations. I mean, those are serious words. So I would 
like to give you an opportunity to respond publicly. On July 
17th Chairman Issa sent you a letter that said: ``Today I 
learned on Monday''--that would have been July 15th--``you 
verbally instructed Elliott Mainzer, the individual you chose 
to act as acting administrator of BPA, that no BPA employees 
were to talk with anyone regarding these allegations, including 
congressional investigators.''
    Did you in fact, Mr. Poneman, instruct Mr. Mainzer that no 
BPA employees were to speak with congressional investigators?
    Mr. Poneman. No, sir, I did not.
    Mr. Connolly. Have you any idea why the chairman would make 
such a charge when your testimony under oath here today is, 
flat out, you did not do such a thing?
    Mr. Poneman. No, sir, I don't know what information he was 
basing that comment on.
    Mr. Connolly. Can you tell us what you did tell Mr. 
Mainzer?
    Mr. Poneman. Absolutely, sir. I told him that it was 
imperative, as I have maintained consistently in all 
communications, that everybody understand clearly that there 
can be no retaliation, no reprisal, no adverse action taken to 
anybody for stepping forward and expressing their concerns in 
any case. And, in fact, he followed up that conversation with a 
communication to all BPA employees to that precise effect, so I 
think he understood me rather clearly.
    Mr. Connolly. Did you ever instruct anyone to muzzle BPA or 
DOE employees?
    Mr. Poneman. No, sir, I did not.
    Mr. Connolly. Chairman Issa next warned: ``Obstructing a 
congressional investigation is a crime.'' Now, that sounds a 
little bit--well, it echoes a tactic used in a previous era 
that is most unpleasant. And if the chairman really believes it 
is a crime, then presumably this committee will pursue it to 
the fullest. And then he, in fact, reminded you that that crime 
statutes have a five year prison penalty, which seems 
deliberately designed to intimidate you, but maybe he felt you 
just needed to be reminded.
    The very same day, however, that Chairman Issa claims you 
ordered the muzzling, the Department sent its official response 
to the IG, explaining that you had personally directed Mr. 
Mainzer to instruct employees to cooperate.
    Can you explain this seeming contradiction between the 
chairman's conviction that a crime almost had been committed 
and apparently your official response directing Mr. Mainzer to 
in fact cooperate?
    Mr. Poneman. Congressman, I can only speak to my own 
actions and there, as I said, I have been consistent that 
anybody in any setting, be they Federal employee or contractor 
employee, has to feel free to step forward and express any 
concerns that they may have to any properly constituted 
authority. So I have been quite consistent on that. It never 
would even occur to me to seek to be obstructing any such 
inquiry, frankly.
    Mr. Connolly. And, Mr. Chairman, just one last question to 
the IG.
    Mr. Friedman, is there anything in your findings or your 
investigation that would contradict anything Mr. Poneman just 
said to this committee under oath?
    Mr. Friedman. We have no allegation, if that is what you 
mean, Mr. Connolly, that Mr. Poneman has muzzled anyone.
    Mr. Connolly. Do you have any information, did anyone come 
forward from DOE or BPA to suggest to you that they had been 
intimidated or coerced or discouraged from cooperating with 
this committee in any way? Do you have any evidence of that as 
the IG?
    Mr. Friedman. Not from Mr. Poneman, with regard to Mr. 
Poneman.
    Mr. Connolly. Thank you.
    Thank you, Mr. Chairman.
    Mr. Jordan. [Presiding.] Thank you.
    Mr. Poneman, you are deputy secretary, you are the number 
two guy at the Department of Energy, is that correct?
    Mr. Poneman. Yes, Mr. Chairman.
    Mr. Jordan. And you have been there since 2009?
    Mr. Poneman. Yes, sir.
    Mr. Jordan. And you head up the Credit Review Board, is 
that accurate?
    Mr. Poneman. Yes, sir.
    Mr. Jordan. So you were on the Credit Review Board when 
decisions were made regarding giving taxpayer money to 
Solyndra, is that correct?
    Mr. Poneman. Actually, the original Solyndra decision, sir, 
occurred before I arrived.
    Mr. Jordan. Were you part of any discussions about the 
taxpayer money that was given to Solyndra? Were you on the 
Credit Review Board when some of that was discussed, yes or no?
    Mr. Poneman. The subsequent issue that came up later, when 
the loan was in trouble, was when I was at the Credit Review 
Board.
    Mr. Jordan. And what is the status of Solyndra today? Isn't 
it true that Solyndra is bankrupt?
    Mr. Poneman. I believe it is bankrupt, sir.
    Mr. Jordan. Okay. So were you on the Credit Review Board 
when Abound Solar was given taxpayer dollars as well, and a 
loan guaranty?
    Mr. Poneman. Abound was during our tenure, yes, sir.
    Mr. Jordan. And isn't it true that Abound Solar is bankrupt 
today, as well?
    Mr. Poneman. I believe that to be the case.
    Mr. Jordan. Okay. And were you on the Credit Review Board 
when Beacon Power was given a loan guaranty?
    Mr. Poneman. Yes, sir. I would note that there are----
    Mr. Jordan. And isn't it true that Beacon Power is bankrupt 
today?
    Mr. Poneman. Yes, sir. And I would also note we have the 
largest wind farm in the world; we have the largest 
photovoltaic farm in the world.
    Mr. Jordan. I am asking the questions here. And you were on 
the Credit Review Board when the decision was made to give 
Fisker a loan guaranty, isn't that true?
    Mr. Poneman. Yes, sir.
    Mr. Jordan. All right.
    Mr. Poneman. And I was also there when Tesla repaid their 
loan early, sir.
    Mr. Jordan. I got that. Maybe we will get to that. I have a 
series of questions.
    And isn't it true that Fisker is in serious financial 
difficulty, failed to meet the milestones established by the 
company?
    Mr. Poneman. Sir, I am not prepared to address the Fisker 
matter today.
    Mr. Jordan. Well, we had a hearing and they are in big 
trouble.
    And isn't it true that you were on the Credit Review Board 
when Nevada Geothermal was given taxpayer money?
    Mr. Poneman. I would have to look at the record, sir.
    Mr. Jordan. Yes, we think it was. And isn't it true, Mr. 
Poneman, that you were on the Credit Review Board when Solar 
Power was given taxpayer money, as well?
    Mr. Poneman. I would have to look, sir.
    Mr. Jordan. And isn't it true, Mr. Poneman, that almost $15 
billion of taxpayer money in the loan guaranty program was 
given to 26 different projects? Is that accurate, $14.5 
billion, 26 projects?
    Mr. Poneman. Sir, we have deployed billions and we have 
leveraged more, and we have to show for that large wind farms, 
large solar farms, and a very, very small default rate, sir.
    Mr. Jordan. And isn't it true, Mr. Poneman, that 22 of 
those 26 projects had a credit rating of BB-, commonly referred 
to as junk status?
    Mr. Poneman. Sir, I would have to look at----
    Mr. Jordan. Well, we have looked at the emails from 
Department of Energy and we have looked at the facts, and that 
is in fact the case. And now we find out, and now we find out, 
as I look at this flowchart, where it says you are number two, 
or this chain of command, that you were also the one directly 
responsible for Bonneville Power Administration. The line goes 
directly up to you. And we find out that this agency or this 
Bonneville Power was discriminating against veterans. We find 
out from Chairman Hastings that the Department has been 
uncooperative was the term he used in inquiry he has made. The 
chairman has said you have not been responsive. And then we 
also find out from Mr. Friedman that there is retaliation going 
on at Bonneville Power. All this is causing me concern about 
what is going on in the Department of Energy.
    Mr. Poneman. Sir, we always seek to be responsive. We 
provide thousands and thousands of documents. We have consumed 
less than 10 percent of the loan loss reserve set aside, which 
I think is not a bad record, even the private sector. We are 
always responsive----
    Mr. Jordan. How many more billions of dollars do you plan 
of loaning out of taxpayer money to other projects over the 
course of this next year, Mr. Poneman, do you have any idea?
    Mr. Poneman. We will have to see how many----
    Mr. Jordan. Do you think your track record is going to get 
better? Are some of these loans you are going to give to these 
projects going to be better than BB-rated companies?
    Mr. Poneman. Sir, the portfolio is healthy; it has been 
looked at, it is being managed actively----
    Mr. Jordan. Three companies bankrupt, four on the verge of 
bankruptcy, and you call that healthy? That is seven out of 26.
    Mr. Poneman. Sir, we have consumed less than 10 percent of 
the loan loss reserve. The default rate is very minor.
    Mr. Jordan. Seven out of 26, 22 out of 26 BB-rating.
    Let me just put up one other thing. I want to ask you this 
question. This is an email that we received and we will make it 
available to everyone. This talks about you were recused from 
decisions regarding Fisker. Tell me why you had to be recused. 
Because you told me that you were on the Credit Review Board 
when decisions were made about Fisker, but this says you were 
recused from that. Why were you recused? Tell me the 
circumstances around that.
    Mr. Poneman. Sir, in 2008 there was a presidential election 
coming up. I had begun to make some inquiries as to whether I 
might need post-Government employment engagement. So when you 
have engagement with entities, you file recusals, and that is 
what I did.
    Mr. Jordan. What was the entity that caused you to--were 
you talking with Fisker directly?
    Mr. Poneman. No, no, no, of course not, sir.
    Mr. Jordan. Okay, so I am still not clear. Deputy secretary 
is recused from Citibank. Citibank is involved in several loan 
guaranty deals and they list Fisker there. So you were recused 
because of your involvement with Citibank?
    Mr. Poneman. I beg your pardon, sir?
    Mr. Jordan. You had to recuse yourself from discussions 
about Fisker because of your involvement with Citibank?
    Mr. Poneman. I had a conversation with Citibank, which led 
me to recuse myself from anything that----
    Mr. Jordan. When did the conversation with Citibank take 
place?
    Mr. Poneman. I can't recall the exact date; I would have to 
come back to you. This is a hearing on a different topic and I 
had not prepared for this.
    Mr. Jordan. Well, let me put up another slide, because I 
just want to ask you, then, because I am curious, because we 
have the minutes from the April 11, 2012 meeting, and as we go 
through the minutes there are several questions. The next 
project for review was Fisker Automotive. The deputy secretary 
asked if any of these problems related to issues of A123 
battery. The deputy secretary asked the company was it--the 
deputy secretary asked this; the deputy secretary--so you were 
critically involved in discussions about whether taxpayer money 
was going to go to Fisker, which we know was on the verge of 
bankruptcy, and yet we also have the email saying you were 
supposed to be recused from any discussions about Fisker. So 
what I want to know is----
    Mr. Cummings. Mr. Chairman?
    Mr. Jordan.--I want to know the timing of----
    Mr. Cummings. Mr. Chairman? Would the chairman yield?
    Mr. Jordan. I would be happy to yield.
    Mr. Cummings. Just very briefly. You know, I have tried to 
sit here and listen to this line of questioning that has 
nothing to do with this hearing, and Chairman Issa and I have--
--
    Mr. Jordan. I think it goes to the--if I could, to the 
ranking member, I think it goes to the performance of the 
Department of Energy as a whole and, obviously, when you are 
discriminating against veterans and you have to recuse yourself 
from taxpayer money given to organizations, I think it all is 
applicable.
    Mr. Cummings. I think that the other thing that I am 
concerned about is you are asking Mr. Poneman some questions 
and I want him to be frank and honest, but at the same time he 
didn't come prepared, I don't think, to answer these questions, 
as you can see, over and over again. But I just think that we 
ought to try to stay within the limits of the hearing. That is 
what this subject is. I tell my members on this side to 
maintain some type of order. We can go over a whole landscape 
of things and not really get to the bottom line here, but again 
I reluctantly even mention this, because I do believe in a 
certain amount of latitude, but at some point it just gets out 
of line.
    Mr. Jordan. I appreciate the ranking member's comments. I 
would just say that Mr. Poneman is the deputy secretary, 
basically runs the Department of Energy, is the number two guy 
there. I asked him a question early on in my five minutes about 
his involvement with the Credit Review Board and Fisker; he 
said he was involved with that decision. Then further asked him 
why he had to be recused subsequently from decisions regarding 
Fisker and highlighted what we have in the emails. We would be 
happy to let Mr. Poneman get back to us with an answer, but you 
would think the number two guy at the Department of Energy 
would know what he did relative--he was just bragging about 
what a great program this is. You would think he would know, 
with respect to Fisker, when he had to be recused and why he is 
in the minutes from the meeting where they were deciding to 
give taxpayer money to Fisker, a now bankrupt company. You 
would think he could give some of those answers to us.
    Mr. Poneman. Sir? Sir?
    Mr. Jordan. Yes. The gentleman can respond.
    Mr. Poneman. With due respect, sir, I did not act on Fisker 
at any time after which I was recused, period. Thank you.
    Mr. Jordan. I am asking when were you recused. That is what 
I want to know. When was the date?
    Mr. Poneman. We will provide you the date, sir. I did not 
come prepared for this line of questioning.
    Mr. Jordan. Okay.
    The gentleman from Michigan is recognized.
    Mr. Walberg. I thank the gentleman.
    Just to make sure I have an understanding, Mr. Friedman, 
are you aware of any BPA whistleblowers who contacted your 
office who now face adverse personnel actions?
    Mr. Friedman. I am not trying to put too fine a point on my 
answer, Congressman, but they faced, past tense, potential 
action, yes.
    Mr. Walberg. What adverse actions did they face?
    Mr. Friedman. Possible suspension.
    Mr. Walberg. What effect does whistleblower retaliation 
have on IG investigations?
    Mr. Friedman. It has a potential chilling effect on our 
ability to get people to be forthcoming, candid, and cough up 
information that is essential to our work.
    Mr. Walberg. So do you feel that the threat of retaliation 
by BPA prevented other whistleblowers from coming forward, as 
well as having a chilling effect on these whistleblowers?
    Mr. Friedman. I can't--to paraphrase a former secretary of 
defense, I don't know what I don't know, and I can't be sure 
there were people who----
    Mr. Walberg. Your best professional opinion.
    Mr. Friedman. My best professional opinion is it put a 
chilling effect on the work that we do. But the original 
whistleblowers, if I may, were people who brought the problem 
with regard to veterans' preference to the attention of 
Bonneville's management, and then there were others who brought 
it to our attention as well.
    Mr. Walberg. Okay. Well, thank you.
    Let me go from there to Ms. Decker. At what time did you 
become aware of retaliatory adverse personnel actions?
    Ms. Decker. So, Mr. Representative, I am not aware of 
retaliatory adverse actions.
    Mr. Walberg. None?
    Ms. Decker. No.
    Mr. Walberg. Then what role did you play in the 
disciplinary process?
    Ms. Decker. In the adverse actions that are in question? 
There are adverse actions at play. I would submit they are not 
retaliatory. I am not a decision-maker in those, but the role 
that I played when they came to my attention----
    Mr. Walberg. Yes, that is what I am asking, the role you 
played.
    Ms. Decker. The role that I played when they came to my 
attention was to understand had there been consideration of the 
whistleblower impact and had there been consideration for the 
due process of managing performance. The answer I got, the 
response I got from our legal counsel was that, yes, those 
things had been weighed, and, yes, there are risks, but that it 
did not preclude proceeding with the adverse action in terms of 
performance accountability.
    Mr. Walberg. What specific role did other BPA employees 
play in the disciplinary process that you have described here?
    Ms. Decker. Representative, as I started to say earlier, 
the individuals in question have a supervisor. The supervisor 
is best equipped to determine the performance of an individual. 
So the supervisor was involved in terms of the individual's 
performance. Beyond the supervisor at Bonneville, our practice 
is to have someone from legal counsel and to have an employee 
specialist work with the manager. In part, that is ensure that 
there is not retaliatory actions, that legal counsel and the 
employee relations specialist are watching for that as someone 
goes on to performance action.
    Mr. Walberg. So you personally took no actions in 
relationship to allegations about retaliatory actions or 
discipline?
    Ms. Decker. What I did----
    Mr. Walberg. Is that a correct understanding?
    Ms. Decker. No. That would be depending on how you look at 
that. So what I did do--my responsibility was to ensure that we 
actually are following the processes that protect employees and 
protect the agency. I did that. Again, I want to underscore 
there was a first-line supervisor, a manager, a director, 
another executive vice president before it got to me.
    Mr. Walberg. Do you think the actions were fair, 
ultimately?
    Ms. Decker. Ultimately, I believe in the process that we 
use and, yes, I believe that they are fair.
    Mr. Walberg. Let me go further here. Randy Hardy, former 
BPA administrator, recently stated that the BPA employees 
claiming retaliation are ``poor performers who claim to be 
whistleblowers.'' He further stated that is a frequent problem 
with whistleblower laws. Do you agree with Mr. Hardy's 
statement that the whistleblowers are poor performers trying to 
insulate themselves from disciplinary action?
    Ms. Decker. Representative, let me say this in terms of Mr. 
Hardy's comment. In this case, I don't know the facts to know 
whether that is true in this case. I think there is appropriate 
whistleblowing. I think that is an important function that is 
played by anyone who brings something forward. The issue of 
someone's performance is oft-times a separate issue, and I 
would not categorically say that someone who is whistle-blowing 
is doing it to protect themselves from performance. But I also 
know that management cannot turn a blind eye to performance 
because someone has a protected status. And there is a chilling 
effect upon managers, as well, if their view is they cannot 
take any action.
    Mr. Walberg. But Mr. Hardy went on to say that he thought 
that was exactly what was at work here, in this instance, and 
that is a concern. And that is not general statement, that is 
specific to this issue.
    Ms. Decker. And that is Mr. Hardy's opinion.
    Mr. Walberg. Is that your opinion?
    Ms. Decker. No, that is not my opinion.
    Mr. Walberg. Thank you.
    Thank the chairman.
    Mr. Bentivolio. [Presiding]. Now going to the gentleman 
from Indiana, Mr. Lankford. Excuse me, Oklahoma
    Mr. Lankford. I will take it. Indiana is a great State as 
well. But if I have the option, I will take Oklahoma, just 
personally, for me.
    Two questions here. Ms. Decker first. You had mentioned 
before, in your oral testimony, that a mistake was made a year 
ago and that mistake is being fixed. Can you clarify what you 
mean by the mistake?
    Ms. Decker. So Bonneville did implement the category rating 
process incorrectly, as Mr. Friedman articulated. That was a 
mistake. In terms of fixed, I would not call that it is fixed; 
I would say that improper application of category ratings has 
stopped. What is not fixed is the reconstruction of those jobs 
during that time period that impacted veterans. We have not 
fixed that yet. So we stopped the erroneous practice, and we 
stopped it because we also saw that it was incorrect. If we 
didn't think it was incorrect, we would still be doing it, and 
the fact of the matter is we stopped back in May 2012.
    Mr. Lankford. Okay, thank you.
    Mr. Poneman, let me ask a little bit about just direction 
for all the PMAs. While Bonneville is the one, obviously, we 
are addressing on this now, is there an emphasis right now 
between DOE to say, okay, we need greater oversight over all of 
these different entities at this point? Is there more of a 
regional focused decision-making? Where do you think the trend 
is going right now as far as how decisions are made, whether it 
be personnel or function or direction?
    Mr. Poneman. I don't think there is a trend, Congressman. 
As you note, all the power marketing administrations fall under 
the authority of the Department of Energy, they are part of the 
Department; they have various different legal authorities and 
various and different traditions. We seek to have good 
cooperative, coordinated relations with all of them, and I 
think to a large measure we do.
    Mr. Lankford. Secretary Chew had written a memo back in 
March of 2012 that talks about just increasing--to work on 
incentivizing energy-efficiency programs, integration of 
variable resources, preparation for electric vehicle 
deployment, and such. Are you familiar with that memo?
    Mr. Poneman. I do recall it, sir.
    Mr. Lankford. Just the preparation and the direction that 
it needs to go on it. A general question on this, and it is a 
difficult one because multiple administrations, both Republican 
and Democrat, for the last 30-plus years have considered the 
PMAs, and Bonneville specifically, as an entity that should be 
privatized, that should be sold, and allow the power to go back 
to the market as it does to other areas. What is the 
consideration? While the consideration is happening at DOE 
about functioning with how we need to direct the different 
PMAs, is there also conversation about is this something that 
should be on the market like other power distribution is?
    Mr. Poneman. Sir, the conversations I have had about the 
power market administrations, as far as I can recall, have not 
touched on privatization, per se. I would note that when there 
was so much concern generated by that memorandum, that we took 
account of that and we had a whole, as I think you know, 
because they included your region, a whole series of working 
groups, and I think it turned out to be a very healthy exercise 
to bring a lot of perspectives to bear and a so-called JOT 
program that I think ended up providing a lot of very useful 
information and a lot of good feedback with good policy 
direction rolling forward for the PMAs.
    Mr. Lankford. What happens if, in the days ahead, this 
Congress were to look at it and say, okay, let's do an 
experiment, let's pilot, let's find one of these areas and be 
able to sell it, and to be able to have the power that is 
generated for that area on the private market, as it does in 
others? And I am very aware of all the parochial concerns that 
immediately folks from that area panic and say we won't have 
electricity in our homes because it will be on the private 
market, and all that kind of stuff, as it in multiple other 
areas. There are terrific assets that are there, but it is also 
a liability to us, the line of credit, and it has a history 
over the past 30 years of sometimes making money and sometimes 
being a stretch on the Federal budget. So the question becomes 
what would it take and are there considerations about selling 
any of these assets.
    Mr. Poneman. Sir, I am not aware of any conversations of 
that character. We are, right now, of course, most directed by 
the statutory bases of all four PMAs, which are different. The 
thing that we are very focused on is they generally require us 
to provide the least power available to the preference 
customer, and so forth, and I am aware that there has been a 
lot of interest in the ability that that has had in generating 
economic growth in the region served by the PMAs.
    Mr. Lankford. Great. This is not just a Republican issue; 
Democrat administrations have brought this same issue up, as 
well, over the years, to say there should be a serious 
consideration to be able to look at not only for budget 
realities, but just for fairness for the community that is 
there and for the Federal taxpayer nationwide to look at it. So 
what I am interested in is are there conversations like that 
that have happened in DOE.
    Mr. Poneman. Not that I have been party to or aware of, 
sir.
    Mr. Lankford. Okay. Thank you.
    I yield back.
    Chairman Issa. [Presiding.] I thank the gentleman.
    We now go to the gentleman from Michigan, just north of 
Indiana.
    Mr. Bentivolio. Thank you, Mr. Chairman, and I apologize; I 
did know he was from Oklahoma.
    Getting back to veterans and hiring preferences, I think I 
have a unique clarity because I am a Vietnam veteran, as well 
as Iraq, and I remember coming home from Vietnam and applying 
for work, and my fellow veterans were telling me don't put 
Vietnam veteran on your resume, you will never get hired. So I 
think I have a unique clarity.
    And what was really upsetting to me when I read this, it 
said that one of your middle managers, he or she would never 
again hire a Vietnam veteran. That was a comment made by the 
report from a whistleblower after they heard this from a middle 
manager.
    Have you ever served in the service, Mr. Poneman? How do 
you pronounce that?
    Mr. Poneman. It is Poneman, sir.
    Mr. Bentivolio. Poneman. Thank you.
    Mr. Poneman. My father was a World War II veteran, but I, 
sir, have not served, but I strongly honor all service and 
honor you for yours.
    Mr. Bentivolio. Thank you very much. But, you know, I hear 
that a lot too, thank you for your service, now get lost.
    Mr. Poneman. And, sir, this is precisely why we are as 
forceful as we are in ensuring that the veterans' preferences, 
which are codified in law, are fully and faithfully executed.
    Mr. Bentivolio. Did you ever talk to your father about his 
experience in World War II?
    Mr. Poneman. I absolutely did, many times. We lost him many 
years ago, sir, but he served in Burma, he served in China, and 
he was in the Signal Corps, and it was a formative experience 
for him. And, by the way, he benefitted from the GI bill and 
got some college education efforts, so we had a strong tie on 
that.
    Mr. Bentivolio. As did I. And thank you for his service.
    Mr. Poneman. Thank you, sir.
    Mr. Bentivolio. A lot of veterans tell me that when they 
come home it is kind of like watching a movie, it is a 3-D 
movie. Everything is live around them, but because they, I 
guess, experience something uniquely different than everybody 
else, it was like watching a movie; they weren't really 
actually part of what they were watching because there was this 
difference.
    But the whistleblowers, Mr. Friedman, any of those 
whistleblowers veterans?
    Mr. Friedman. I don't know.
    Mr. Bentivolio. Did you ask? You had about five or six, 
right, and others?
    Mr. Friedman. That is an interesting question. I don't 
believe we have posed that question.
    Mr. Bentivolio. Okay. Very good. Just a few more questions.
    You had 146 cases of applications or people you were 
hiring. Was that the extent? And what was the period? Two 
questions. What was the period of hiring that we are discussing 
and how many openings for jobs were there?
    Mr. Friedman. Well, as I indicated, those are our 
preliminary numbers. It covers a period of 2010, November 2010 
to 2012, April or May of 2012.
    Mr. Bentivolio. Okay. So out of 146 cases, you said how 
many hired were actual veterans?
    Mr. Friedman. I don't know how many hired were actual 
veterans. What I have said is in two-thirds of the cases the 
veterans were--there were prohibited personnel practices in 
which veterans were disadvantaged.
    Mr. Bentivolio. Did anybody tell you why, other than this 
comment I hear that they bound with each other too quickly and 
undermine management? I don't understand how that----
    Mr. Friedman. Well, in terms of the actions that were taken 
by Bonneville, what we were told by the hiring officials and 
the program officials is they wanted to reduce the size of the 
pool they had to deal with for selection purposes.
    Mr. Bentivolio. Why do you think that is? I have a real 
hard time with that because--well, go ahead, answer.
    Mr. Friedman. Well, I have a hard time with it, too. That 
is why we are doing what we are doing.
    Mr. Bentivolio. Yes, I understand. So, let's see, I had one 
other question. I can't remember what it is, so I will yield 
back.
    Chairman Issa. Will the gentleman yield?
    Mr. Bentivolio. Yes.
    Chairman Issa. Mr. Friedman, I would ask that you give the 
committee the effective numbers, do the analysis based on the 
known pool of how many veterans would have been in the pool had 
it been at 90 percent and how many were in the pool each time 
at a different number. I think both the ranking member and I--I 
will let him have the rest of the time--would like to know the 
effect of this change, even if we don't know the intent.
    Mr. Friedman. Mr. Chairman, let me totally candid with you. 
That question cannot be answered with any precision until all 
the files have been reconstructed, and that is going to take--
that is not something that I can do; something that Bonneville 
is going to be doing and the Department is going to be doing. 
It is going to take months before that is done.
    Chairman Issa. I appreciate it. We will be patient and we 
will take partial reports as they become available.
    Mr. Cummings?
    Mr. Cummings. Thank you, Mr. Chairman. Just one quick 
question.
    How do we correct this? In other words, we talk about 
correction. Discrimination is a buggerbear. It is criminal. 
Because basically what you have done is deprived these veterans 
of opportunities, and it just doesn't affect them; it affects 
their families and generations probably yet unborn. I haven't 
even gotten into the frustration piece.
    Mr. IG, Mr. Friedman, if you were to find these violations, 
will they go into any kind of corrective action?
    But thank you very much, I appreciate it, Mr. Chairman.
    Mr. Friedman. Well, Mr. Cummings, if, at the end of the 
day, this pans out the way it is headed right now, and it is 
going to take some time, we are going to have, hopefully, 
recommendations that will get to the root causes of the 
problem, at least the proximate causes of the problems at 
Bonneville. We are hoping that there will be lessons learned. 
Frankly, this whole exercise will have been for naught if there 
aren't lessons learned that can be applied certainly throughout 
the Department of Energy, and perhaps beyond, and that is our 
hope.
    Part of this, though, is a question of judgment and, Mr. 
Cummings, I don't know that you can regulate judgment or 
legislate judgment. People here knew there was a problem and 
didn't correct it at the source, and that is a judgment call, 
and I am not sure how you correct that, to be honest with you. 
It is frustrating.
    Chairman Issa. Thank you. We look forward to finding out 
how we do that with the secretary.
    Mr. Poneman?
    Mr. Poneman. I would just like to add to that. We will 
certainly benefit from whatever the IG finds, but our 
responsibilities are not abated while he is doing his work. And 
I just want to assure the chairman and the ranking member that 
we have sent out, and we continue to send out, support. We have 
people actually on the ground now instructing on how to execute 
these laws and responsibilities appropriately so that the 
veterans' preferences are fully respected. We are not awaiting 
the outcome of any investigation to make sure we try to get at 
the actual practices themselves and correct them so that these 
problems don't recur and we fix them where they have occurred.
    Chairman Issa. Well, we appreciate that. I think what the 
ranking member and I are both getting to is you have a pool of 
people who may have gone on to other jobs, may have done other 
things, and may not even be interested in these positions at 
this time. But until you essentially stop hiring anyone else, 
look and find these people and offer them a job, you won't at 
least have corrected the portion that is still within 
correcting.
    Mr. Poneman. And we are on that, Mr. Chairman. We are 
working that issue.
    Mr. Cummings. Mr. Chairman, I am so glad you said what you 
just said, because you are right. These are people who lost out 
on an opportunity and they probably can identify them. And I am 
so glad you said that because it is just one of the ways, at 
least, for people who, if we find out that they definitely were 
discriminated against, they might at least have an opportunity 
to be brought back into a pool which they should have been in 
from the very beginning. So I do appreciate that, Mr. Chairman, 
and I would hope that we would follow up on that.
    Chairman Issa. Ms. Decker?
    Ms. Decker. Mr. Chairman and Mr. Representative, if I could 
comment on that. There is a process to reconstruct, and that is 
what we need to get after. I think that is Bonneville's hope, 
to get that done, and it is DOE's. I think that is one place I 
can say there is agreement that that reconstruction process 
needs to take place. And, yes, we can identify the pool of 
folks that have been impacted.
    Chairman Issa. Okay, we are going to go to Mr. Gowdy, who 
has been patiently waiting, but affirmative action must be done 
quickly to have any real effect on the lives that have been 
disrupted as a result of wrongdoing. The ranking member said 
generations unborn. We don't want to wait for the generation 
unborn to be offered a job at Bonneville.
    Ms. Decker. I hear you.
    Chairman Issa. Or at some other equivalent place, which is 
within the Department of Energy's ability. You have a very 
large pool. If you had that entire list, you could offer them 
an equal or greater. You could go a long way toward a 
corrective action. And we are talking affirmative action here. 
We are talking about a group that has been discriminated 
against. They deserve to be recognized quickly and corrective 
action separate from accountability, and I think that is what 
the ranking member and I are so dedicated to and why we are 
really having this hearing today.
    The gentleman from South Carolina, Mr. Gowdy. Thank you for 
your patience.
    Mr. Gowdy. Thank you, Mr. Chairman, and I apologize to you 
and my fellow committee members, Mr. Chairman. I was in the 
back meeting with two constituents, so if I ask questions that 
have already been asked, forgive me. It probably won't hurt the 
witnesses to answer them more than once, so I will proceed on.
    What evidence, Mr. Inspector General, do you have, if any, 
of an intent to discriminate? Not a discriminatory effect, but 
an intent.
    Mr. Friedman. Mr. Gowdy, I want to answer your question as 
directly and honestly as I can.
    Mr. Gowdy. I am sure you will.
    Mr. Friedman. There are two pieces here. One is the piece 
we have talked about this morning, which is adjusting the cut 
line in this system. We have no indication at this point that 
it was an intentional, wilful attempt to discriminate against 
people who were entitled to veterans' preferences. There are 
other issues that we are looking at associated with the review 
that we currently have ongoing which may cross into that 
boundary. I have no idea where we are headed. I think you have 
a prosecutorial background. We are following the facts where 
they take us; we just don't know where it will be.
    Mr. Gowdy. And that is exactly what I want you to do. So 
you have concluded that there was a discriminatory effect, and 
now you are trying to adduce whether or not there was 
discriminatory intent.
    Mr. Friedman. No. What I am saying is there are at least 
multiple pieces to this inspection that we have ongoing. One 
piece deals with the inappropriate adjustment of the best 
qualified pool which resulted in applicants, including 
veterans, being discriminated against.
    Mr. Gowdy. That is the effect.
    Mr. Friedman. We have no indication right now that it was 
done willfully and intentionally in terms of affecting veterans 
and those with veterans' preference.
    Separate and apart from that, although part of the rubric 
under which this whole investigation, this whole inspection is 
undergoing, are certain additional instances which may cross 
the boundary that you have described.
    Mr. Gowdy. When was BPA first put on notice that the 
practices were unlawful or discriminatory, regardless of 
intent?
    Mr. Friedman. In May or June of 2012.
    Mr. Gowdy. What remedial steps were taken and with what 
timeliness?
    Mr. Friedman. We are told that the process at that point, 
they stopped the process of adjusting the lower boundary for 
the best qualified list.
    Mr. Gowdy. Contemporaneous with you bringing it to their 
attention?
    Mr. Friedman. They received it from their own folks as 
well, individuals in the human management program at 
Bonneville.
    Mr. Gowdy. Ms. Decker?
    Mr. Friedman. However, Mr. Gowdy, an important point. This 
is a two-part process. One is stopping the activity; the second 
part, which Ms. Decker referred to and we refer to in our 
report, which is, in a sense, as important, is that there are 
remedial actions that need to be taken to address those who 
have been negatively impacted. You must notify them----
    Mr. Gowdy. Those are definitely two of the parts. I am 
primarily interested in how we got to those two parts.
    Mr. Friedman. Okay.
    Mr. Gowdy. And I can start with Ms. Decker. I am interested 
for the motive. What motive exists to have a discriminatory 
practice that adversely impacts veterans, whether it was 
intentional or not? What is the motive?
    Ms. Decker. Representative Gowdy, as I understand it, there 
was no motive to discriminate. There was a motive that was 
inaccurately applying the category rating.
    Mr. Gowdy. So you are just telling me it was simply 
negligence that adversely impacted this discreet group, but 
there was no intent to single out that group?
    Ms. Decker. Absolutely not.
    Mr. Gowdy. And what evidence do you have to support that?
    Ms. Decker. The evidence I have to support that is that it 
impacted both veterans and non-veterans. There were jobs where 
there were no veteran candidates, and yet the category was 
altered.
    Mr. Gowdy. Who made the decision to adjust the parameters 
that led to this?
    Ms. Decker. They were made in our staffing organization.
    Mr. Gowdy. Who was the boss? Who was the head of all of 
them? Who is the final decision-maker?
    Ms. Decker. So the director of the human resources 
organization at that point was a gentleman named Roy Fox, and 
he had a staffing manager. I do not know where the final 
decision on how the application occurred was made.
    Mr. Gowdy. I guess what I am trying to get at is somebody 
did some adjusting. They had to have a reason for doing it. 
They didn't read a horoscope that morning and decide to do it; 
they had to have a reason to do it. What is the reason?
    Ms. Decker. As I understand it, and this may not be a full 
answer, as I understand it, the way they interpreted the 
regulations, so their interpretation was faulty. They believed 
that there could be a modification of the category after it was 
initially set in the hiring process. That was inaccurate. You 
cannot move the category. I don't know the specific motive of 
the staffing manager to make that a policy call.
    Mr. Gowdy. Mr. Chairman, I am out of time. I have one more 
question. I will pose it and the chairman can decide whether or 
not he would like it to be answered or not.
    I understand, Mr. Chairman, that in January of 2012 DOE 
gave BPA an award for hiring veterans. I am trying to figure 
out how in the hell you can have a discriminatory practice, 
intentional or otherwise, single out the people who bring it to 
the authority's attention, the whistleblowers, and then qualify 
for a DOE best practices award. I am having a tough time 
reconciling all three of those. But I am also out of time.
    Chairman Issa. Well, if someone can justify that or explain 
it, I would appreciate it. Ms. Decker?
    Ms. Decker. So there is a fine point that I would like to 
underscore.
    Chairman Issa. Sure. We want the record to be complete.
    Ms. Decker. Okay.
    Representative Gowdy, you asked a question of Mr. Friedman 
whether the stopping of the practice at Bonneville was a result 
of the IG. The stopping of the practice at Bonneville was a 
result of staff talking to management and saying that they were 
concerned about it, and that stopped the process. It was not--
--
    Mr. Gowdy. Well, I am out of time, but if I weren't out of 
time, I would ask you how long did that take. I mean, was it 
stopped the hour that you learned of the practice, the minute 
of it, the week, the month?
    Ms. Decker. It was stopped within two days.
    Mr. Gowdy. Okay. Well, then that leads to whether or not 
you discovered it as timely as you should have.
    Ms. Decker. We did not discover it as timely as we should 
have.
    Mr. Gowdy. Okay. Well, look, I am not adverse to giving 
credit where credit is due, but I can't give you credit for 
that fact pattern. And I still haven't heard an answer how you 
qualify for a best practices award.
    Mr. Poneman. I would----
    Chairman Issa. This will be the final, final answer.
    Mr. Poneman. Yes. I don't mean to delay the committee.
    Chairman Issa. No. Please go ahead, secretary.
    Mr. Poneman. This, as I said at the outset, congressman, 
perhaps when you were not here, this is a storied and very 
distinguished organization with a great history, and they have 
done a lot of great things in a lot of great areas, and right 
across the board. That doesn't obviate our responsibility to 
make sure that in all cases the law is applied fairly 
consistently and accurately. So it is certainly possible that 
things can be happening in one part of the organization that 
are fine and good, and there are things happening that are not 
fine and good. The fact that something is going well in one 
place does not, obviously, alleviate us of our obligation to 
respect veterans' preferences and so forth. So that would be 
all I would have to offer. I don't know the specific details of 
the award that you mentioned, but in the question being how 
that can happen, that is how it can happen, because we 
acknowledge all aspects of performance; the good, the bad, and 
everything in between.
    Chairman Issa. Thank you.
    Mr. Cummings, I am not going to do a second round, but do 
you want to say anything in closing, or any final questions?
    Mr. Cummings. I want to thank all of you for being here. 
One of the things that I am hoping is that we address this 
issue and it is addressed in a way that helps those who have 
been left out. The chairman said something that I just want to 
make sure that we are clear on. When I said that discrimination 
might affect generations yet unborn, I want to first of all say 
that I agree with him that I don't want to wait for 
generations. That is not what I was trying to say. And he is 
absolutely right, justice delayed is justice denied, and if we 
can find remedies quickly and get people back and give them a 
chance that they should have had, we need to do that as fast as 
possible.
    But what I was saying was I have lived long enough now and 
seen enough to see when, say, that female is deprived of an 
opportunity she should have gotten, then she can't do for her 
children and, to me, that is criminal. So that generation of 
children then don't benefit. And I have seen it with African-
Americans deprived over and over again, and then they die not 
getting the opportunities they deserve. To me, that is criminal 
because you basically have shut off opportunities for them in 
the future, and for their children. And that is the point that 
I was trying to make.
    But I have to ask this one question. When Ms. Decker was 
testifying just a moment ago in regard to Mr. Gowdy's 
questions, Mr. Friedman, you kind of looked like you were in 
total disagreement. Could you comment, please? I can't help but 
watch you. And then that is my last question. Thank you.
    Mr. Friedman. Mr. Cummings, I wish I could answer your 
question. I don't know what my reaction may have been, what 
comment----
    Mr. Cummings. Was there something that she said that you 
disagreed with? Just now.
    Mr. Friedman. I really don't believe there was, Mr. 
Cummings. I am sorry.
    Mr. Cummings. All right, thank you.
    Thank you, Mr. Chairman.
    Chairman Issa. Thank you.
    I am going to close with just a couple quick points.
    Mr. Secretary, I know that within the Federal Government, 
Ms. Decker is not the only person who is on administrative 
leave, finding themselves being paid, but without a job. I 
can't speak for the Government. I have only spent my military 
time and then my time here with the Government. But this 
practice under your watch, as essentially the chief operational 
office at Department of Energy, this practice of not finding a 
way to either begin direct disciplinary action or find some way 
to get some modicum of benefit from somebody who is in the 
Senior Executive Service who is highly paid. Now, I know that 
sometimes people say, well, if you take me off administrative 
leave and don't give an equal level job, that in fact I am 
being punished, but I will tell you I would rather this 
committee have to look at whether people are finding the 
highest and best use for somebody that for some reason cannot 
return to their exact position, I would rather have that then 
have somebody who simply is being paid not to come to work. 
That is somebody, a private citizen, and I am now speaking as a 
taxpayer, that I think you can do better. Or Ms. Decker can be 
told why she is on administrative leave and action could be 
begun. And that is part of what we will be voting on the House 
floor today. So that is not an order, it is just something from 
a citizen who pays a not insignificant amount of taxes.
    I am going to close. Mr. Connolly, while I was consulting 
over there, went into one of his statements, and for some 
reason every time I say something it seems like I get referred 
to as tail-gunner Joe McCarthy. But I want to make sure I make 
the record straight, because we didn't get into specifics, Mr. 
Secretary, because we just wanted to make the record clear that 
you will take the action to ensure that the committee gets 
cooperation throughout any of our investigations. But I want to 
make the record clear. A high ranking official said no one at 
BPA was to speak about this outside of BPA and DOE, and that 
that person alleged that it came from Mainzer, your appointee, 
acting, and that he got it from you. So specifically following 
up on that, we talked to the acting director there and he said: 
``I personally have no problem sharing information with you.'' 
This was to my committee staff. ``But I don't feel like I have 
the elbow room outside my chain of command to talk to you right 
now.'' Now, that is your personally appointed acting.
    We are not accusing you of deliberately obstructing our 
investigation, and I tried to be very clear. But your way of 
expressing coordination and so on may have very well been 
interpreted by your key lieutenant at Bonneville Power, similar 
to the statement he made directly to us, and that translates to 
people saying, well, you know, we kind of have to get 
permission to talk. That is all I was saying. I am not backing 
off. If anything, I didn't plan on making the specifics of 
these people public. But if somebody down the dais wants to say 
that somehow I am making accusations, it isn't. My staff and 
Mr. Cummings' staff often call directly to people we think we 
should work with, sometimes because of something we are hearing 
from the IG. And this is not the first time this ever happened 
and this is not the first administration that it happened 
under. But I brought it to your attention because I would like 
to know that you can take the corrective action in how you 
speak to your lieutenants so that they would feel that they 
have the elbow room. Of course you want to be notified. That is 
fine. But we want them to be able to speak candidly.
    Mr. Poneman. Thank you, Mr. Chairman, for raising this. 
This is, in fact, a very important issue that you raise, and it 
is important to remember first principles. The first principles 
is that not only do we accept, but we welcome the oversight of 
this committee. It is part of the process that keeps our whole 
system of government healthy, point one.
    Point two, we always endeavor, sir, and I think we have a 
good record and we always, as I say, we require that we improve 
our performance by our own metrics, to be cooperative. One of 
the things I have found, sir, in all candor, is that in the 
jobs that we have, the first thing that happens, it is like a 
kid's game of telephone, you say one thing and it becomes, 
frankly, wildly distorted. So all I can do, and I am doing it 
under oath and I have done it in private and I will do it in 
public, is to be very, very clear. There is no tolerance for 
reprisal for anybody communicating freely with all constituted 
authorities, including this committee. That has been the 
instruction. That will be the instruction.
    And at the same time it is also very important, with a 
large organization, that we communicate clearly and 
authoritatively what our policies are, and we can't have, 
obviously, 110,000 policies; we have to have one policy. So I 
will be very mindful of making sure that people understand that 
coordinating a policy position has nothing to do whatsoever 
with the fact that every individual, be they contractor or 
Federal employee, be free to step forward. The first job I was 
given in 1989, Mr. Chairman, when I entered, on a fellowship, 
the Department of Energy was writing the regulation to protect 
contractor whistleblowers. So this is something that is 
personal to me, as well, and we will continue to endeavor to be 
cooperative and to be responsive. These are incredibly 
important issues in the merits of the case, and we are going to 
keep working at it and making sure we do it with the speed and 
intensity and faith in the process and in our laws that is 
required.
    Chairman Issa. Thank you.
    In closing, I trust that in your role over at the 
Department of Energy, and for all the cabinet administrators, 
that what has been discovered here and is still under an 
inspection and ultimate decision, is being looked at by every 
chief executive of every agency to find out whether it has 
happened, somehow, on their watch. This is one of those things 
where, and you worked in the nuclear world, if something 
happens somewhere, anywhere to a nuclear facility or a product, 
the first thing everyone says is could it happen to mine. If 
you have a fleet of 737's and a plane crashes anywhere in the 
world or has a problem, everybody inspects their aircraft.
    The question of whether or not people have deliberately or 
inadvertently been discriminated against is one that I would 
trust that this hearing helps establish should be looked at not 
later than today throughout all the Federal Government.
    I thank you for your testimony. I believe it has been 
helpful to that end.
    We stand adjourned.
    [Whereupon, at 12:22 p.m., the committee was adjourned.]


                                APPENDIX

                              ----------                              


               Material Submitted for the Hearing Record

[GRAPHIC] [TIFF OMITTED] T6720.013

[GRAPHIC] [TIFF OMITTED] T6720.014

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
